Office of Material Loss Reviews
Report No. MLR-11-010


Follow-up Audit of FDIC Supervision
Program Enhancements




       Certain information regarding internal
   guidance associated with enforcement actions
      has been omitted in the publicly-issued
             version of this final report.




                                     December 2010
                                      Executive Summary

                                      Follow-up Audit of FDIC Supervision Program
                                      Enhancements
                                                                                       Report No. MLR-11-010
                                                                                              December 2010

Why We Did The Audit
Since mid-2007, a deep and prolonged housing market downturn in many areas of the United States
coincided with significant disruptions to credit markets to create a much more challenging operating
environment for FDIC-insured institutions. The impact of the financial crisis is evident in the significant
increase in financial institution failures over the past 3 years. More specifically, the number of
FDIC-insured bank failures totaled 25 in 2008 and rose to 140 during 2009. Under the Federal Deposit
Insurance Act (FDI Act), when failures of FDIC-supervised institutions resulted in a material loss to the
Deposit Insurance Fund, defined during that timeframe as a loss of the greater of $25 million or 2 percent of
the institution’s assets at the time of closing, we were required to perform a material loss review (MLR) to
determine the causes of failure and assess the FDIC’s supervision of the institution.

On May 1, 2009, we issued an internal memorandum that outlined major causes, trends, and common
characteristics of FDIC-supervised financial institution failures that had resulted in a material loss to the
DIF for eight institutions. That initial communication, in conjunction with results of our subsequent MLR
work, has prompted the FDIC to take various actions to address issues we have surfaced and other
supervisory matters that senior management believed warrant additional attention. As of August 20,
2010, 118 additional FDIC-insured financial institutions had failed. In addition, as of the same period, we
had issued 57 more MLR reports on 64 failures of FDIC-supervised institutions.

The objectives of this audit were to (1) determine the actions that the FDIC has taken to enhance its
supervision program since May 2009, including those taken specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent MLRs. To a certain
degree, we also reviewed actions implemented during 2008 that may have related to MLR trends and/or
enhanced the Division of Supervision and Consumer Protection’s (DSC) supervision.


Background
As of June 30, 2010, the FDIC insured 7,830 institutions and was the primary federal regulator (PFR) for
4,814 state nonmember banks. The FDIC also has back-up supervisory responsibility for other insured
institutions for which the Board of Governors of the Federal Reserve System, the Office of the
Comptroller of the Currency, and the Office of Thrift Supervision are the PFRs.

The FDIC pursues the following two strategic goals in fulfilling its supervisory responsibilities as the
PFR for state nonmember banks:

       FDIC-insured institutions are safe and sound and
       Consumers’ rights are protected and FDIC-supervised institutions invest in their communities.

The FDIC promotes safe and sound financial institution practices through regular risk management
examinations performed by DSC, publication of guidance and policy, ongoing communication with
industry officials, and the review of applications submitted by FDIC-supervised institutions to expand
their activities or locations. When appropriate, the FDIC has a range of informal and formal enforcement
actions available to resolve safety and soundness problems identified at these institutions. The FDIC also
has staff dedicated to offsite monitoring programs and enhancing the Corporation’s ability to identify
emerging safety and soundness issues in a timely manner.
   Executive Summary                   Follow-up Audit of FDIC Supervision Program
                                       Enhancements
                                                                                        Report No. MLR-11-010
                                                                                               December 2010




Audit Results

The FDIC has taken a holistic approach to enhancing supervision by (1) involving FDIC officials from
various offices and divisions to participate in the Corporation’s efforts and (2) implementing a
comprehensive review and analysis of the FDIC’s approach to supervision. As a result of these
collaborative efforts, the FDIC has either implemented or planned actions that substantially address our
previously reported MLR-related trends and issues, and other issues identified in subsequent MLRs that
will enhance its supervision program.

Of particular note, the FDIC has:

       emphasized a forward-looking supervisory approach, which is embodied in a comprehensive
        training program and various financial institution and examiner guidance, including guidance
        related to de novo banks;

       implemented other cross-cutting initiatives such as establishing relevant Corporate Performance
        Goals in 2009 and 2010 specifically related to some MLR issues;

       implemented a post-MLR assessment process to identify lessons learned from the bank failures
        and conclusions included in our MLR final reports and solicit input from its examination staff
        regarding suggested changes to policies and procedures. This process also resulted in the
        identification of potential best practices related to the FDIC’s examinations;

       enhanced offsite monitoring activities;

       enhanced coordination between its risk management and compliance examination functions;

       improved interagency coordination for charter conversions; and

       worked with the other federal regulatory agencies to implement a new agreement associated with
        the FDIC’s backup examination authority.

The FDIC is also involved in interagency efforts to address some of the more systemic MLR trends, such
as capital definitions and levels, and liquidity. Although it is too early to evaluate the effectiveness of the
actions that the FDIC has taken, we have included recommendations for the Corporation to further
improve its supervision program based on the high-level policy analysis we performed.

With respect to trends in MLRs issued since May 2009, those reports confirmed the issues previously
identified and noted new trends, some of which have already been addressed in the FDIC’s forward-
looking supervisory approach and other initiatives. Those trends relate to:

       Government Sponsored Enterprises investments, collateralized debt obligations, collateralized
        mortgage obligations, and other mortgage-backed security concentrations and associated losses,
        and inadequate investment policies or failure to follow such policies;
   Executive Summary                 Follow-up Audit of FDIC Supervision Program
                                     Enhancements
                                                                                      Report No. MLR-11-010
                                                                                             December 2010



       inadequate consideration of risk associated with large borrowing relationships/individual
        concentrations;

       purchased loan participations without adequate due diligence, credit administration, and/or
        consideration of the associated third-party risk;

       the need for additional enhancements to offsite monitoring activities; and

       the need for consistent notification of restrictions applicable to banks that are deemed to be
        Adequately Capitalized.

Some of our initial MLRs provided a conclusion regarding the effectiveness of Prompt Corrective Action
(PCA). However, we decided not to make such conclusions in subsequent MLRs due to the complexity
and scope of work involved. Instead, we opted to conduct further work related to this area that would
provide more definitive information upon which to make such assessments. Accordingly, in May 2010,
the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory Action
Provisions of the FDI Act (section 38, PCA and section 39, Standards for Safety and Soundness) in the
banking crisis.

Given the limited time that had elapsed since DSC had initiated the various forward-looking supervision
initiatives and issued new or updated guidance, we determined it was premature to assess their
effectiveness in enhancing the supervision program. However, we are recommending that the Director,
DSC, review and communicate, when deemed necessary, additional examiner and financial institution
expectations in areas that we have found to be central to failures and losses to the DIF.


Recommendations and Management Comments

The report contains five recommendations intended to improve DSC’s supervision program. After we
issued our draft report, management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 21, 2010, the DSC Director
provided a written response to the draft report. That response is provided in its entirety as Appendix 4 of
this report. DSC concurred with each of the five recommendations. DSC’s planned actions, which are to
be completed by June 30, 2011, are responsive to the OIG’s recommendations. All of the
recommendations are resolved and will remain open until we determine that the agreed-upon corrective
actions have been completed and are responsive to the recommendations. A summary of management’s
response to the recommendations is provided in Appendix 5 of this report.
                                    Contents
                                                                          Page
Background                                                                  2
   Risk Management Examinations                                             2
   Compliance Examinations                                                  3
   Overview of Financial Institution Failures and Associated Losses         3
   Summary of Completed Material Loss Reviews                               3
   Trends and Issues in the May 2009 Memorandum                             4

Results of Audit                                                            5

Forward-Looking Supervisory Approach                                        7
   Forward-Looking Supervision Training                                     7

Cross-Cutting Initiatives Addressing MLR Trends                             9
   Corporate Performance Goals                                              9
   Back 2 Basics Training                                                   9
   Post-Material Loss Review Assessments                                   10
   On-the-Job Reference Guides                                             10

Guidance Issued and Other Steps Taken to Address Specific MLR Trends       12
   and Issues
   Assignment of CAMELS Component and Composite Ratings                    12
   Assessment of Bank Boards of Directors and Management                   13
   Supervision of De Novo Institutions                                     16
   Examination of Commercial Real Estate and Acquisition, Development,     19
      and Construction Concentrations
   Large Borrowing Relationships and Individual Concentrations             24
   Use of Non-core Sources to Fund Asset Growth                            25
   Assessment of Purchased Participation Loans and Security Investments    28
   Issuance and Monitoring of Supervisory and Enforcement Actions          30
   Enhanced Offsite Monitoring                                             32

Further Enhancements to the FDIC’s Supervision Program                     34
   Coordination Between Risk Management and Compliance Examinations        34
   Coordination and Approval of Charter Conversions                        34
   Enhanced Backup Examination Authority                                   35

Financial Reform Act Requirements                                          35

Conclusion and Recommendations                                             36

Corporation Comments and OIG Evaluation                                    37

Appendices
  1. Objectives, Scope, and Methodology                                    38
  2. Glossary of Terms                                                     40
  3. Acronyms                                                              43
  4. Corporation Comments                                                  44
  5. Management Response to Recommendations                                45
                                  Contents
                                                                             Page
Tables
   1. Total Assets and Estimated Losses to the DIF, Calendar Year 2007         3
       Through August 20, 2010
   2. Number of Failed FDIC-Supervised Banks and Completed Material Loss       4
       Review Reports by Calendar Year, 2007 Through August 20, 2010
   3. States with the Largest Number of FDIC-Supervised Bank Failures that     4
       Resulted in an MLR, as of August 20, 2010
   4. CRE- and ADC-Related Guidance                                           21

Figure
   Number of De Novo Banks Chartered, December 2002 Through June 2010         16
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General



DATE:                                           December 23, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Follow-up Audit of FDIC Supervision Program
                                                Enhancements (Report No. MLR-11-010)


Since mid-2007, a deep and prolonged housing market downturn in many areas of the
United States coincided with significant disruptions to credit markets to create a much
more challenging operating environment for FDIC-insured institutions. The impact of
the financial crisis is evident in the significant increase in financial institution failures
over the past 3 years. More specifically, the number of FDIC-insured bank failures
totaled 25 in 2008 and rose to 140 during 2009. As of August 20, 2010, 118 additional
FDIC-insured financial institutions had failed.

Under the Federal Deposit Insurance Act (FDI Act), when failures of FDIC-supervised
institutions resulted in a material loss to the Deposit Insurance Fund, defined during that
timeframe as a loss of the greater of $25 million or 2 percent of the institution’s assets at the
time of closing, we were required to perform a material loss review (MLR) to determine the
causes of failure and assess the FDIC’s supervision of the institution.1

On May 1, 2009, we issued an internal memorandum that outlined major causes, trends,
and common characteristics of FDIC-supervised financial institution failures that had
resulted in a material loss to the DIF for eight institutions. That initial communication, in
conjunction with results of our subsequent MLR work, has prompted the FDIC to take
various actions to address issues we have surfaced and other supervisory matters that
senior management believed warrant additional attention.




1
  On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Financial Reform Act). The Financial Reform Act amends section 38(k) of the FDI Act by
increasing the MLR threshold from $25 million to $200 million for losses that occur for the period
January 1, 2010 through December 31, 2011. Section 987 of the Act provides for the threshold to decrease
in subsequent years and eventually establishes a $50 million threshold by January 1, 2014. In addition, the
Financial Reform Act authorizes the OIG to conduct in-depth reviews (IDR) on bank failures for which the
estimated loss to the DIF is below the established $200 million threshold.
As of August 20, 2010, we had issued 57 additional MLR reports on 64 failures of FDIC-
supervised institutions.2 In light of this additional body of work and the time elapsed
since the May 2009 memorandum, we determined that it was an appropriate time to take
a snapshot of where the FDIC stood in addressing the previously identified trends and
issues and what themes may have subsequently emerged. To that end, the objectives of
this audit were to (1) determine the actions that the FDIC has taken to enhance its
supervision program since May 2009, including those taken specifically in response to
the May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs. To a certain degree, we also reviewed actions implemented during
2008 that may have related to MLR trends and/or enhanced DSC’s supervision.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report discusses our audit objectives, scope, and
methodology in detail. Appendix 2 contains a glossary of key terms, including the
components of the Uniform Financial Institutions Rating System (also known as the
CAMELS ratings). Appendix 3 contains a list of acronyms. Appendix 4 contains the
Corporation’s comments on this report and Appendix 5 contains a summary of
management’s response to the recommendations.

Background
As of June 30, 2010, the FDIC insured 7,830 institutions and was the primary federal
regulator (PFR) for 4,814 state nonmember banks. The FDIC also has back-up
supervisory responsibility for other insured institutions for which the Board of Governors
of the Federal Reserve System (FRB), the Office of the Comptroller of the Currency
(OCC), and the Office of Thrift Supervision (OTS) are the PFRs.

The FDIC pursues the following two strategic goals in fulfilling its supervisory
responsibilities as the PFR for state nonmember banks:

        FDIC-insured institutions are safe and sound and

        Consumers’ rights are protected and FDIC-supervised institutions invest in their
         communities.

Risk Management Examinations

The FDIC promotes safe and sound financial institution practices through regular risk
management examinations performed by the Division of Supervision and Consumer
Protection (DSC), publication of guidance and policy, ongoing communication with
industry officials, and the review of applications submitted by FDIC-supervised
institutions to expand their activities or locations. When appropriate, the FDIC has a


2
  Three of the 57 reports covered the failure and supervision of multiple, related institutions, bringing the
total number of failed banks covered by the MLRs to 72.



                                                       2
range of informal and formal enforcement actions3 available to resolve safety and
soundness problems identified at these institutions. The FDIC also has staff dedicated to
offsite monitoring programs and enhancing the Corporation’s ability to identify emerging
safety-and-soundness issues in a timely manner.

Compliance Examinations

The FDIC also promotes institution compliance with consumer protection, fair lending,
and community reinvestment laws through a variety of activities, including regular
compliance and Community Reinvestment Act (CRA) examinations performed by DSC,
the dissemination of information to consumers about their rights and required disclosures,
and the investigation and resolution of consumer complaints regarding FDIC-supervised
institutions. The FDIC has a range of informal and formal enforcement actions available
to resolve compliance problems identified during these examinations.

Overview of Financial Institution Failures and Associated Losses

As noted earlier, the number of FDIC-insured financial institution failures has steadily
and significantly increased between 2007 and 2010. As indicated below in Table 1, the
amount of estimated loss to the DIF was substantial for 2008 through August 20, 2010.

Table 1: Total Assets and Estimated Losses to the DIF, Calendar Year 2007
         Through August 20, 2010
                                        2007                2008              2009           2010
    Total Assets and Estimated Losses Per Year
    Total Assets at Inception        $2.3 billion   $361.3 billion      $171.2 billion   $77.5 billion
    Estimated Loss to DIF            $0.2 billion   $ 19.8 billion      $ 35.7 billion   $18.6 billion
    Source: FDIC Division of Finance (DOF) data on failed financial institutions.


Summary of Completed Material Loss Reviews

Although not all of the bank failures resulted in a material loss to the DIF and a
subsequent MLR, an overwhelming majority of the failures in January 2007 through
2010 have resulted in substantial losses and a subsequent MLR as discussed below. As
indicated in Table 2, we have issued reports on the failure of 72 FDIC-supervised
financial institutions between January 2007 and August 2010. Those failures were
covered in 65 MLRs.




3
 Informal supervisory actions available to the FDIC include, but are not limited to, Bank Board
Resolutions (BBR) and Memoranda of Understanding (MOU). Formal enforcement actions may include
Cease and Desist Orders (C&D), Consent Orders, Civil Money Penalties (CMP), and PCA Directives.


                                                        3
Table 2: Number of Failed FDIC-Supervised Banks and Completed Material Loss
         Reviews by Calendar Year, 2007 Through August 20, 2010
                                                      2007           2008        2009       2010       Total
    FDIC-Supervised Banks that Failed                   2             14          79         74         169
    Issued MLRsa of FDIC-Supervised Bank                0             11          61         0b         72
    Failures
    Source: OIG analysis of FDIC-supervised bank failures and the authorities governing MLRs.
    a
      The threshold for MLRs prior to July 21, 2010, was $25 million or 2 percent of the failed bank’s total
    assets. On July 21, 2010, the threshold, as defined by the Financial Reform Act, increased to
    $200 million.
    b
      As of August 20, 2010, the FDIC OIG had not issued any final MLR reports on failures that occurred
    beginning in January 2010. The determination of whether an MLR is required is based on DOF data on
    the total assets at the time the FDIC is appointed receiver and the total estimated losses to the DIF. The
    DOF data for January 2010 failures was not received until March 2010. Accordingly, the 6-month time
    frame to conduct the applicable MLRs did not start until that data was received. As a result, MLRs for
    that time period were due, at the earliest, in September 2010.

Although MLR reports have been issued on FDIC-supervised failed banks throughout the
country, some states—such as Georgia, California, and Illinois—accounted for a large
number of the MLRs that we conducted, as indicated in Table 3.

Table 3: States with the Largest Number of FDIC-Supervised Bank Failures that
         Resulted in an MLR, as of August 20, 2010
                                       Number of FDIC-Supervised Bank Failures That Resulted
                 State                        in an Issued MLR, as of August 20, 2010
                Georgia                                         21
               California                                       10
                Illinois                                        10
                Florida                                          5
                 Texas                                           4
             Washington                                          4
            All Other States                                    18
                 Total                                          72
    Source: FDIC DOF data and OIG-issued MLRs, as of August 20, 2010.

Trends and Issues in the May 2009 Memorandum

As discussed previously, on May 1, 2009, we issued a memorandum to the FDIC Audit
Committee and met with the FDIC Chairman on various occasions to share our
perspectives on MLR trends and indicated that our initial observations on the common
characteristics of failures were based on the initial eight MLRs we conducted—six final
and two draft MLR reports.4 For those eight institutions, assets and estimated losses to
the DIF totaled $5.1 billion and $1.9 billion, respectively, as of August 20, 2010.

Based on that early work, we suggested that greater consideration of risk in assigning
CAMELS component and composite ratings in addition to reliance on current financial
condition appeared to be needed. Risky behaviors that did not seem to have had a
sufficient impact on CAMELS ratings included:


4
    Final reports were subsequently issued for these two draft MLRs.


                                                        4
    •   Pursuit of aggressive growth in commercial real estate (CRE) and acquisition,
        development, and construction (ADC) loans;

    •   Excessive levels of asset concentration with little risk mitigation;

    •   Reliance on wholesale funding to fund asset growth;

    •   Ineffective leadership from bank boards of directors (Board) and management;

    •   Inadequate loan underwriting and lack of other loan portfolio and risk
        management controls, including appropriate use of interest reserves;

    •   Allowance for loan and lease losses (ALLL) methodology and funding; and

    •   Compensation arrangements that were tied to quantity of loans rather than quality.

We also identified unique issues associated with “de novo” institutions, and we
emphasized the need to monitor business plans closely; consider growth that exceeded
the plan as a risk to be managed; and ensure that management expertise and operations/
administrative structures kept pace with asset growth. We further observed that
examiners generally had not used the non-capital provisions of PCA to curtail activities
that contributed to losses to the DIF.

In addition to issuing the May 2009 memorandum, we communicated these issues to the
DSC Director and to DSC senior management and staff by way of numerous visits to
FDIC regional offices from June through September 2009, and more recently during a
Regional Directors’ meeting in June 2010. Additionally, in monthly Audit Committee
meetings, we presented the results of completed MLRs, and that forum focused high-
level attention on MLR issues. Chairman Bair also convened a working group that met
regularly for the purpose of addressing emerging supervisory issues.

Results of Audit
The FDIC has taken a holistic approach to enhancing supervision by (1) involving FDIC
officials from various offices and divisions to participate in the Corporation’s efforts and
(2) implementing a comprehensive review and analysis of the FDIC’s approach to
supervision. As a result of these collaborative efforts, the FDIC has either implemented
or planned actions that substantially address our previously reported MLR-related trends
and issues, and issues identified in subsequent MLRs that will enhance its supervision
program.5


5
  The FDIC exercises its statutory authority, in cooperation with other PFRs and state agencies, to ensure
that all FDIC-insured institutions appropriately manage risk. To that end, a number of state regulatory
agencies have also implemented actions to address MLR results related, but not limited, to: de novo banks,
contingency liquidity planning, CAMELS downgrades, stress testing, analyzing financial institutions’ risk
profiles, improving training, and prioritizing examinations.


                                                    5
Of particular note, the FDIC has:

        emphasized a forward-looking supervisory approach, which is embodied in a
         comprehensive training program and various financial institution and examiner
         guidance;6 including guidance related to de novo banks;

        implemented other cross-cutting initiatives such as:

             o    establishing relevant Corporate Performance Goals in 2009 and 2010
                  specifically related to some MLR issues; and

             o    implementing a post-MLR assessment process to identify lessons learned
                  from the bank failures and conclusions included in the OIG MLR final
                  reports and to solicit input from its examination staff regarding suggested
                  changes to policies and procedures. This process also resulted in the
                  identification of potential best practices related to the FDIC’s
                  examinations;

        enhanced offsite monitoring activities;

        enhanced coordination between its risk management and compliance examination
         functions;

        improved interagency coordination for charter conversions; and

        worked with the other federal regulatory agencies to implement a new agreement
         associated with the FDIC’s backup examination authority.

The FDIC is also involved in interagency efforts to address some of the more systemic
MLR trends, such as capital definitions and levels, and liquidity. Although it is too early
to evaluate the effectiveness of the actions that the FDIC has taken, we have included
recommendations for the Corporation to consider regarding several steps to further
improve its supervision program based on the high-level policy analysis we performed.

With respect to new trends in MLRs issued since May 2009, those reports confirmed the
issues previously identified and noted new trends that warranted attention by the FDIC.
Those trends relate to:

        Government Sponsored Enterprises investments, collateralized debt obligations
         (CDO), collateralized mortgage obligations (CMO), and other mortgage-backed
6
  In conjunction with the DSC Risk Management Manual of Examination Policies and other examination
manuals, the FDIC issues Regional Directors (RD) Memoranda to FDIC examiners to provide guidance on
a variety of supervisory issues, including, but not limited to, the examination process and procedures,
supervisory and enforcement actions, and expectations regarding examiner follow-up. In addition, the
FDIC issues Financial Institution Letters (FIL) to FDIC-supervised financial institutions to announce new
regulations and policies, new FDIC publications, and a variety of other matters of principal interest to those
responsible for operating a bank or savings association.


                                                      6
        security (MBS) concentrations and associated losses, and inadequate investment
        policies or failure to follow such policies;

       inadequate consideration of risk associated with large borrowing
        relationships/individual concentrations;

       purchased loan participations without adequate due diligence, credit
        administration and/or consideration of the associated third-party risk;

       the need for additional enhancements to offsite monitoring activities; and

       the need for consistent notification of restrictions applicable to banks that are
        deemed to be Adequately Capitalized.

Some of our initial MLRs provided a conclusion regarding the effectiveness of PCA.
However, we decided not to make such conclusions in subsequent MLRs due to the
complexity and scope of work involved. Instead, we opted to conduct further work
related to this area that would provide more definitive information upon which to make
such assessments. Accordingly, in May 2010, the OIG initiated an evaluation of the role
and federal regulators’ use of the Prompt Regulatory Action Provisions of the FDI Act
(section 38, PCA and section 39, Standards for Safety and Soundness) in the banking
crisis.

Forward-Looking Supervisory Approach
Recognizing the need to re-emphasize a supervisory approach that encompassed
consideration of a financial institution’s risk profile in all facets of the examination
process, the FDIC (1) implemented a comprehensive training program that stresses the
fundamentals of the examination process and focuses on forward-looking supervision and
(2) issued additional examiner and financial institution guidance, which is discussed
throughout the later sections of this report.

Forward-Looking Supervision Training

On June 26, 2009, DSC announced the Forward-Looking Supervision approach, which
was delivered as a comprehensive training program7 and reinforced in subsequent
guidance. The purpose of the Forward-Looking Supervision initiative is to build upon
the strengths of the supervision program, emphasize balanced and timely response to
weak management practices and identified risks, and emphasize a forward-looking
approach to examination analysis and ratings based upon the lessons learned from the
recent institution failures.



7
 The Forward-Looking Supervision training included case studies related, but not limited, to compliance,
de novo banks, bank management, and assignment of CAMELS ratings, which were used to provide
examiners with opportunities to consider and apply guidance to practical situations.


                                                    7
Developed as a response to the MLR trends and issues, the Forward-Looking Supervision
training acknowledged the common trends included in the MLRs and concluded that
while the MLRs revealed that examiners identified risks at failed institutions, the MLRs
had provided lessons learned and issues for DSC’s consideration in its supervisory role.
Specifically, DSC concluded that (1) examination recommendations were not always
effective in prompting management to take corrective action; (2) greater supervisory
concern and earlier supervisory action were needed to address banks with high-risk
profiles or weak risk management practices; (3) enhanced supervision was warranted for
de novo banks, especially those with material deviations from their business plan; and
(4) bank capital levels need to be commensurate with the risk profile of the institution.

The Forward-Looking Supervision training (1) emphasized that examiners should
consider bank management practices as well as current and prospective financial
performance and conditions or trends when assigning ratings and (2) served to improve
examiners’ comfort level regarding appropriate and timely corrective action when they
identify weak management practices. In addition, the Forward-Looking Supervision
training placed significant emphasis on and provided guidance related, among other
things, to:

       CAMELS ratings and descriptions, including the consideration of risk rather than
        reliance on a bank’s financial condition;
       de novo banks and review of business plans;
       risks associated with concentrations and wholesale funding sources;
       loan underwriting and administration and interest reserves;
       capital maintenance;
       Matters Requiring Board Attention (MRBA);8
       supervisory follow-up and enforcement actions, including Consent Orders;9 and
       offsite reviews.

To further emphasize the significance of the forward-looking supervisory approach, DSC
established and met its goal to provide training to the entire headquarters and regional
and field office examination staff by March 31, 2010. In addition, DSC included
individuals from the Conference of State Bank Supervisors in its training sessions, and
state regulatory agency representatives were invited to participate in training sessions
held in DSC field offices. Further, DSC regional offices enhanced their banker outreach


8
  In January 2010, the FDIC issued examination guidance, entitled Matters Requiring Board Attention,
which outlined procedures for including MRBA in examination reports and the tracking of such matters for
follow-up purposes. The FDIC recognized the significance of ensuring timely communication of identified
deficiencies that require attention by the bank’s Board and management and timely and effective follow-up
by examiners to determine the institution’s progress in addressing those concerns. The FDIC tracks
MRBA-related issues and identifies those actions that are outstanding and require examiner follow-up with
bank management.
9
  The MLRs noted that, in some instances, substantial time lapsed between the identification of risks, the
issuance of examination reports, and the initiation and issuance of enforcement actions. The FDIC
implemented the use of Consent Orders, in part, to facilitate timely issuance of formal supervisory actions
to address institution risks.


                                                     8
programs to reinforce the Forward-Looking Supervision (starting in May 2010 and
continuing through December 2010).

In the future, the Forward-Looking Supervision concept will be incorporated into the
various examiner risk management and compliance courses provided by the FDIC’s
Corporate University.

Cross-Cutting Initiatives Addressing MLR Trends
The FDIC has taken a variety of additional steps to broadly address MLR issues and
other actions to further enhance supervision. More specifically, the Corporation
established Corporate Performance Goals to address MLR-related issues, implemented a
training program emphasizing key supervisory issues, performed internal assessments of
MLR results, and updated reference guides for examiners, all of which are discussed in
the following sections of this report.

Corporate Performance Goals

The FDIC established Corporate Performance Goals in 2009 and 2010 that demonstrate
a focus on issues and trends identified by the MLRs. Those goals and objectives relate,
but are not limited, to (1) ensuring that significant examiner concerns are brought to the
attention of bank Boards and management, including significant concerns in MRBA
sections of examination reports; and (2) conducting examiner follow-up to ensure that
institutions take timely and effective action to address the identified problems.

Back 2 Basics Training

Although not initiated as a specific response to the MLR results, on May 4, 2009, DSC
announced the Back 2 Basics training to (1) provide a range of targeted courses on topics
that were especially relevant in the rapidly changing financial environment, (2) provide
guidance on certain examination topics that were high-profile, and (3) reinforce basic
bank examination concepts and techniques. The training was developed, in part, based
on information provided by FDIC examiners during a 2007 training needs survey and
more recent developments in the financial industry and currently includes 12 risk
management courses and 16 compliance courses.

The goal of the Back 2 Basics program is to ensure that commissioned examiners are
fully equipped to deal with volatile changes to the nation’s financial environment. As
such, the Back 2 Basics training includes guidance on issues such as CRE and ADC
lending, liquidity and funding sources, ALLL, enforcement actions, and compliance-
related issues including unfair and deceptive acts and practices. The computer-based
courses are available to the examination staff on an on-going basis and include self-study
materials and simulations. In addition, the Back 2 Basics course can serve as a readily
available source for addressing risk management and compliance issues that may arise
during examinations.




                                             9
Post-Material Loss Review Assessments

On June 17, 2009, the FDIC implemented a process for the DSC regional and field
offices to conduct an internal analysis when the failure of an FDIC-supervised institution
causes a material loss to the DIF. Each DSC regional office is required to conduct an
analysis and complete a Post-Material Loss Review Memorandum to be issued no later
than 45 days after the receipt of the OIG’s MLR report. The memorandum requires DSC
regional and field offices to incorporate all appropriate and relevant feedback obtained
from field examination personnel, including the field office supervisor, supervisory
examiners, and examiners-in-charge as a result of their involvement in the institution’s
supervision and the OIG’s MLR process.

As of August 23, 2010, DSC’s regional offices had provided analyses for 51 MLR final
reports, which outlined lessons learned and recommendations for improvement from
DSC’s regional and field offices on each one of the OIG’s MLRs. Examiner lessons
learned and recommendations related, but were not limited, to ALLL funding, CAMELS
ratings, concentrations, de novo institutions and the application process to obtain deposit
insurance, liquidity monitoring, management turnover and dominant bank management,
rapid growth, and risk management controls.

DSC officials have developed a means to track the various lessons learned and
recommendations provided by the respective regional offices and the status of those
issues. For example, on March 19, 2010, DSC officials briefed the DSC Director on the
types and status of lessons learned and recommendations that regional office officials had
provided and whether actions already taken or planned by the FDIC addressed the
recommendations.

On-the-Job Reference Guides

In June 2010, DSC issued a memorandum to its regional directors that announced updates
to online on-the-job (OJT) reference guides for risk management and compliance
examinations. The guides were updated to include guidance issued since 2007. The
guides provide instruction on issues such as ALLL, capital, liquidity, loan analysis, and
internal controls.

According to the June 2010 memorandum, the guides are an informal on-the-job training
tool for pre-commissioned examiners, including assistant examiners, mid-career
examiners, newly hired examiners, and interns. The optional use of the guides, along
with classroom-based instruction, promotes consistent training for examination staff.
The guides are not intended to be a “step-by-step instruction manual” and should be used
in conjunction with the Risk Management Manual of Examination Policies (Examination
Manual),10 outstanding examination guidelines, and the Examination Documentation


10
  DSC is planning to update a number of examiner manuals, including the Examination Manual, to
incorporate the revisions to and/or new guidance issued to examiners and financial institutions.



                                                  10
(ED) Modules.11 Finally, the memorandum notes that the guides will be periodically
reviewed to ensure they contain up-to-date training material and continue to meet the
needs of pre-commissioned examiners, trainers, and supervisors.

Our review of the risk management OJT guide indicates that it includes specific
references to some of the recently issued examiner guidance and refers examiners to
other applicable FILs or RD Memoranda. However, we noted that the OJT reference
guide for risk management did not include certain DSC guidance related to some of the
common causes of bank failures identified in our MLRs. For example, the risk
management loan analysis portion of the OJT guide specifically addresses FIL-104-2006,
Commercial Real Estate Lending Joint Guidance, dated December 12, 2006 (Joint
Guidance) and FIL-61-2009, Prudent Commercial Real Estate Loan Workouts, dated
October 2009. However, we noted that the loan analysis OJT guide does not specifically
include other significant CRE guidance such as:

        FIL-22-2008, Managing CRE Concentrations in a Challenging Environment,
         issued March 2008;12

        an RD Memorandum entitled, Supervising Institutions with CRE Concentrations,
         issued July 2008; and

        an RD Memorandum entitled, Clarification of Calculation in Guidance on
         Commercial Real Estate, issued April 2010.

In addition, the risk management OJT reference guide does not address de novo banks or
the significant changes DSC has made to its supervisory approach and additional
guidance it has issued regarding those institutions and specific requirements of bank
management in them.

Consistent with the June 2010 memorandum, and in light of the extent of new guidance
issued by DSC and the significant number of new examination staff hired by the division,
the risk management OJT guide should be reviewed and updated to ensure it includes all
significant and newly-issued guidance, especially guidance related to common causes of
failure identified during the MLRs.




11
   ED Modules are an examination tool that focuses on risk management practices and assists examiners in
establishing the appropriate examination scope. During May 2009, September 2009, and September 2010,
DSC completed updates to a large number of ED Modules, including those related to CRE concentrations
and commercial and industrial loans, rate sensitivity and earnings, management and internal controls, risk
scoping, related organizations, and securities, and has developed a new module that addresses brokered and
high-rate deposits.
12
   Although not included in the loan analysis OJT guide, this FIL is included in the Loan Underwriting
Standards and Credit Administration guide.


                                                   11
Guidance Issued and Other Steps Taken to Address Specific
MLR Trends and Issues
To address the trends identified by the MLRs and reported to the FDIC Audit Committee
and Chairman, the FDIC has issued specific examiner and financial institution guidance
as noted below.

Assignment of CAMELS Component and Composite Ratings

The MLRs determined that the CAMELS ratings for the failed financial institutions
placed greater emphasis on a bank’s financial condition at the time of the examination
and levels of capital and earnings, rather than the bank’s ability to successfully mitigate
identified risks.

CAMELS ratings are used by the federal and state regulators to assess the soundness of
financial institutions on a uniform basis and to identify those institutions requiring special
supervisory attention. Each financial institution is assigned a composite rating based on
an evaluation and rating of six essential components of an institution’s financial condition
and operations. The six component areas are Capital adequacy, Asset quality,
Management, Earnings, Liquidity, and Sensitivity to market risk. The CAMELS rating
system contains explicit language in each of the components emphasizing management’s
ability to identify, measure, monitor, and control risks. However, based on the OIG’s
MLR work, as indicated below, examiners did not always place sufficient emphasis on
risk mitigation when assigning CAMELS ratings.

      Examiners generally identified and reported on high-risk business strategies and
       deficient practices, but the risks and deficiencies were not always reflected in
       assigned component and composite ratings.

      Bank management did not timely and effectively address examiner concerns and
       recommendations, and the lack of such effective action was not always reflected
       in the assigned CAMELS ratings until significant financial deterioration had
       occurred.

      Examiners frequently explained that it was their perception that the apparent
       financial strength of an institution, expressed in earnings and capital, limited their
       options for addressing elevated risk profiles. Accordingly, in many cases,
       examiners did not downgrade the CAMELS ratings of financial institutions with
       high-risk business strategies until the bank had experienced significant financial
       deterioration.

When these risks, either alone or in combination with one another, manifested themselves
through substantial financial deterioration and losses, many institutions experienced
multiple CAMELS downgrades and ultimately failed, resulting in substantial losses to the
DIF.



                                             12
FDIC Actions to Address the Assignment of CAMELS Ratings

The FDIC has taken action to emphasize the importance of implementing a forward-
looking approach to examinations and reflecting financial institution risks in the assigned
CAMELS ratings. As discussed previously, the Forward-Looking Supervision initiative
and related training emphasizes that:

      examiners should consider significant and/or increasing risks and high-risk
       business strategies that do not have adequate mitigating controls; and

      the existing ratings assessment criteria and rating definitions clearly
       (1) incorporate this type of forward-looking risk assessment as a consideration
       when assigning CAMELS component and composite ratings and (2) demonstrate
       that the quantity of risk and the potential adverse consequences of those risks
       should be considered when assigning CAMELS ratings.

First, certain guidance issued to examiners prior to the OIG’s May 1, 2009 memorandum
has been re-emphasized. For instance, the FDIC’s July 2008 CRE guidance, Supervising
Institutions with CRE Concentrations, states that if examiners conclude that a bank has
inadequate capital for its concentrations, they should recommend that the bank increase
its capital, with appropriate changes to CAMELS ratings.

The FDIC and the other regulatory agencies have also issued guidance regarding
assigning and documenting appropriate ratings. For example, DSC issued examiner
guidance entitled, Documentation of CAMELS Rating Changes During the Report Review
Process for Risk Management Reports of Examination, dated July 22, 2009, which, as
indicated by its title, provides information regarding the documentation of CAMELS
ratings during the examination process.

In addition, recognizing that compensation arrangements can provide incentives for bank
management to take imprudent risks, guidance entitled, Guidance on Sound Incentive
Compensation Policies, dated June 21, 2010, states that supervisory findings related to
incentive compensation will be communicated to institutions, included in relevant
examination or inspection reports, and reflected, as appropriate, in assigned ratings.

Finally, the FDIC has other processes designed to assess the appropriateness of assigned
CAMELS ratings, including (1) offsite monitoring efforts to determine whether interim
changes or downgrades in CAMELS ratings are appropriate for identified risks and
(2) interagency initiatives to review CAMELS rating descriptions and determine whether
changes are needed in guidance related to those descriptions.

Assessment of Bank Boards of Directors and Management

The Board and management for many of the failed institutions that were the subject of
MLR reports failed to (1) effectively identify, measure, monitor, and control risk;
(2) ensure compliance with laws, and regulations, policy, and regulatory orders; and
(3) effectively manage de novo banks. In addition, some of the failed banks employed


                                            13
compensation arrangements with incentive or bonus features that appeared to promote
asset growth, without adequate consideration of loan quality. Further, bank management
failed to provide timely and adequate attention to ensure that examiner and audit
recommendations intended to correct identified deficiencies were implemented.

Our MLRs also showed that examiners sometimes identified dominant board members or
senior bank management, but the institutions did not effectively mitigate the risk
associated with those dominant officials. The Examination Manual indicates that there
are at least two potential dangers inherent in a “One Man Bank” situation:
(1) incapacitation of the dominant officer may deprive the bank of competent
management and (2) problem situations resulting from mismanagement are more difficult
to solve through normal supervisory efforts. The manual notes that in “One Man Bank”
situations, it is extremely important that examiners assess the bank’s control environment
and, when applicable, recommend necessary changes to the control structure.
Nevertheless, we noted that the examiners frequently did not identify in examination
reports a bank’s lack of controls over a dominant board member or their determination
that a dominant Board member had negatively influenced bank operations until the
bank’s financial condition had deteriorated and/or the last examination before the bank
failed.

FDIC Actions to Address Bank Boards and Management

In addition to actions taken to address excessive compensation discussed previously, the
following are examples of actions that the FDIC has taken to address the role that bank
Boards and management have played in many of the failures that we reviewed.
Specifically, the FDIC:

        implemented the Forward-Looking Supervision training, which recognized that
         the following are indicative of elevated risk associated with management:
         exhibiting a high appetite for risk, changing the bank’s business plan, being
         unresponsive to examiner recommendations, paying excessive compensation, and
         having a dominant official. Accordingly, examiners were instructed to address
         these types of issues in the MRBA section of the examination report, which is
         explained below.

        instituted a process that requires examiners to (1) record significant issues and
         recommendations that require attention by the Board in examination reports,
         including those related, but not limited to, high-risk business strategies,
         inadequate risk mitigation strategies, dominant management, and apparent
         violations and policy/procedural weaknesses, and (2) proactively monitor bank
         responses and actions to address those issues. In addition, examination reports
         should include an MRBA13 section that focuses on issues that if not properly
         measured, monitored, and controlled, could adversely impact the institutions.

13
   The FDIC enhanced its Virtual Supervisory Information on the Net (ViSION) system to specifically
track MRBA and identify those that are outstanding. The FDIC requires examiners to follow up with bank
management regarding those MRBA that are outstanding.


                                                  14
       DSC regional offices are to include the MRBA issues in the examination report
       transmittal letters, request timely responses from bank management, track the
       recommendations, monitor the bank’s progress in addressing them in the post-
       examination period, provide feedback to banks between examinations, and take
       appropriate corrective action to address inadequate or ineffective actions to
       address these issues.

Further, the FDIC has enhanced actions relative to the management of de novo banks,
bank board and management compliance with business plans and regulatory orders, and
the risk associated with those banks, as discussed in the next section of this report. Those
actions require more effective communication between the banks and the FDIC regarding
growth, funding strategies, concentrations, revisions to business plans, and more timely
communication of requests to deviate from previously-approved business plans. In
addition, the FDIC has issued more guidance to address bank management’s appetite for
high-risk concentrations and nonresponsiveness to examination recommendations, as
discussed later in this report.

As previously discussed, DSC established an internal post-MLR assessment requirement.
Our analysis of the 51 post-MLR memoranda that DSC’s regional offices submitted as of
August 2010 clearly indicates that, among other issues, examiners identified dominant
bank officials as a significant concern and made suggestions and/or identified lessons
learned regarding dominant officials. Those suggestions and/or lessons learned included
the following:

      dominant officials present unique supervision challenges, and such influence
       without an appropriate independent Board or internal controls creates an
       environment for abuse and poor risk selection;

      offsite monitoring and application review, including those for de novo banks, and
       approvals should be enhanced to include consideration of dominant officials,
       coupled with other risk factors;

      director education requirements should be (1) encouraged by examiners to assist
       in preparing Board members to perform their responsibilities and enhance their
       abilities to identify potential risks and (2) included in informal corrective
       programs when a dominant official and a weak Board are evident in a financial
       institution;

      closer supervision for banks that have dominant officers should be provided and
       the level of involvement of individual board members needs close scrutiny; and

      a more forward-looking approach in the assessment of management and the
       bank’s Board, especially when deficiencies have been identified related to
       reporting to the Board and possible “red flags” regarding a dominant officer are
       evident, may be needed.




                                            15
At the suggestion of one of DSC’s regional offices, the Forward-Looking Supervision
training included a case study that, according to a DSC official, (1) instructed examiners
to be cognizant of “red flags” related to dominant influence or concentrations of authority
during their assessment of a bank’s Board and/or management, including the assigned
CAMELS rating, and (2) recognized the need for increased supervision and review of a
bank’s internal controls and possible coordination with independent directors when
dominant management is identified. Although the Forward-Looking Supervision training
addressed dominant influence to some degree, we noted that the FDIC has not issued
additional guidance or otherwise reemphasized existing guidance related to examination
coverage and identification of risks related to institutions with dominant officials.
Therefore, the FDIC should review existing examiner guidance to determine whether a
reiteration of that guidance and/or communication and clarification of DSC’s
expectations of its examiners with respect to this issue would be beneficial.

Supervision of De Novo Institutions

As illustrated in the following figure, a substantial number of commercial de novo banks
were chartered by state regulatory agencies and insured by the FDIC from 2002 through
2008, with the largest number of charter approvals occurring between 2004 and 2007. A
substantial number of the de novo institutions chartered from 2002 through 2009 were
geographically located in the DSC Atlanta and San Francisco regions.


                            Number of De Novo Banks Chartered,
                             December 2002 Through June 2010

  250


  200
                                                 194
                                       179               181

  150
                              128
                    118
           95                                                      98
  100



   50
                                                                            31
                                                                                      3
     0
         Dec-02    Dec-03    Dec-04    Dec-05   Dec-06   Dec-07   Dec-08   Dec-09   Jun-10


Source: FDIC Statistics at a Glance, as of June 2010.




                                                   16
At the time we conducted our fieldwork, of the financial institutions that failed since
February 2007, 75 were formed after 1999. Further, 69 percent of the de novo and
“young banks”14 that failed and caused a material loss to the DIF were located in DSC’s
Atlanta region.

De novo banks are subject to additional supervisory oversight and regulatory controls,
including the development and maintenance of a current business plan, increased
examination frequency, and higher capital requirements. In addition, de novo banks are
required to comply with certain mandatory and other discretionary conditions included in
regulatory orders issued by the applicable state chartering agency and the FDIC.
Although many of those institutions were chartered or were attempting to establish
operations during the beginning and continuation of a severe economic downturn, our
MLRs identified unique issues associated with de novo institutions. Specifically, we
reported that, in a number of instances, de novo banks:

        implemented business strategies that proved fatal to their viability and frequently
         failed to maintain a current business plan and comply with the FDIC-approved
         business plans and conditions included in regulatory orders, including the FDIC’s
         Final Order of Approval for Deposit Insurance; and

        quickly pursued aggressive growth in risky asset concentrations, especially CRE
         and/or ADC concentrations, without ensuring that adequate risk management
         controls were implemented to mitigate the associated risk.

In addition, these institutions frequently relied heavily on wholesale funding sources
including, but not limited to, brokered deposits and Federal Home Loan Bank (FHLB)
borrowings to fund aggressive asset growth. De novo institutions also tended to rapidly
expand bank operations and use loan production offices to increase loan growth.
Although de novo banks are expected to grow, such growth should be accomplished in a
prudent manner.

FDIC Actions to Address De Novo Institutions

The FDIC issued additional guidance to examiners: Deposit Insurance Application
Processing and De Novo Institution Supervision and Examination Guidance, dated
August 26, 2009; and to state nonmember financial institutions in FIL-50-2009, to
address issues reported in the MLRs related to the supervision of state nonmember de
novo banks. The guidance acknowledges that (1) depository institutions insured for less
than 7 years had been over-represented in the institutions that failed during 2008 and
2009, with most of those failures occurring between the 4th and 7th years of operation, and
(2) a number of newly insured institutions had pursued changes in business plans during
14
  Young banks were defined as those in the 4th through 9th years of operation. In Financial Institution
Letter (FIL)-50-2009, Enhanced Supervisory Procedures for Newly Insured FDIC-Supervised Depository
Institutions, dated August 28, 2009, the FDIC notified financial institutions that it has extended the de novo
period to include years 4 through 7 and expanded the heightened supervisory examination requirements for
those banks. Although the actual failure dates for some of these banks extended into the 8th year of
operation, the problems that caused the banks to fail began during the de novo phases of operation.


                                                     17
the first few years of operation, which, in some cases, led to increased risk and financial
problems when the banks’ controls and risk management practices were inadequate. The
guidance addresses the following:

        review and approval of applications and business plans, monitoring of compliance
         with business plans and regulatory orders, and determination of material
         deviations from approved business plans;
        prior approval of material changes to business plans;
        recognition of associated risks;
        examination cycles for risk management, compliance, and CRA evaluations, and
         examiner follow-up between examinations;
        extension of the de novo period from the first 3 years to the first 7 years for
         examinations,15 capital, and other requirements; and
        consideration of supervisory actions, when determined appropriate.

Business Plans. The FDIC had been requiring de novo institutions to provide written
notice of proposed changes to business plans during the first 3 years of operation but did
not always require de novo banks to obtain formal written approval before implementing
proposed changes. However, going forward, deposit insurance orders for state
nonmember de novo institutions will require prior FDIC approval for any proposed
material change or deviation in the business plan.

The FDIC will evaluate proposed material changes and determine whether the capital
level, management expertise, and internal controls are sufficient to adequately manage
the risks associated with the proposed change. To more closely monitor activities
associated with de novo banks for a longer period, before the end of the 3rd year of
operation, FDIC-supervised de novo institutions are now required to submit updated
financial projections and updated business plans for years 4 through 7. Further, if a de
novo institution implements a material change in its business plan without obtaining the
FDIC’s prior non-objection during the de novo period, the FDIC can consider assessing
civil money penalties or other enforcement action.

Examination Cycle. For risk management examinations, a limited-scope examination
will be conducted on de novo institutions within the first 6 months of operation and a
full-scope examination within the first 12 months of operation. Thereafter, de novo
institutions will remain on a 12-month examination cycle through the 7th year of
operation. Similarly, enhanced and frequent compliance examinations have been
implemented during the first 5 years of operation.

Offsite Monitoring. The FDIC emphasized the importance of offsite monitoring of de
novo banks. Tools used to monitor de novo banks include a De Novo Tracking Module,
developed in 2007, to facilitate variance analysis between banks’ initial financial

15
  The extension of the de novo period to 7 years is consistent with the deposit insurance assessment rules,
which generally require newly insured banks to pay higher assessments for a period longer than the first
3 years of operation. Specifically, for assessment purposes, newly-chartered banks have to pay higher
premiums for the first 5 years of operation.


                                                    18
projections and actual performance over the first 3 to 5 years of operation. According to
DSC officials, at inception, the tracking module also incorporated the ability to track the
MRBA for de novo banks. However, the tracking of the MRBA for all banks has since
been migrated, as of July 26, 2010, to the FDIC’s ViSION system. In addition to the
tracking module, the FDIC will continue to use other offsite review techniques for
monitoring de novo banks, including the Statistical CAMELS Off-site Rating (SCOR),
Real Estate Stress Test (REST), and Growth Monitoring System (GMS) indicators.

Examination of Commercial Real Estate and Acquisition, Development, and
Construction Concentrations

Concentrations in CRE and ADC loans, coupled with inadequate risk management
practices have played a role in practically every failure that was the subject of an MLR.
In addition, the inappropriate use of interest reserves by bank management was noted in
many of the MLRs we conducted. In most instances, we found that bank management
generally failed to implement an adequate risk management framework appropriate for
the level and nature of the asset concentrations to effectively identify, monitor, and
control the associated risks. Although financial institutions’ CRE and ADC
concentration levels that were identified significantly and consistently exceeded the
levels identified for greater supervisory analysis, institutions’ Boards and bank
management lacked adequate (1) loan underwriting and credit administration, including
appraisals, global cash flow analyses, and interest reserves, (2) portfolio stress testing,
and (3) loan policies and ALLL provisions.

Regarding inadequate risk management practices, bank management did not always
establish and implement sound loan policies that controlled risk in the loan portfolio. For
example, failed institutions often had not required appropriate loan-to-value ratios,
obtained reliable appraisals for their loans, or required borrowers to demonstrate their
ability to re-pay loans apart from the sale of the underlying property. The failed
institutions’ loan administration functions often were under-staffed, and the banks lacked
sound policies and procedures for administering loan portfolios, particularly those with
higher-risk characteristics.

Regarding interest reserves, we determined that banks frequently relied heavily on
interest reserves, which can mask loans that would otherwise be reported as delinquent
and erode collateral protection, increasing a lender’s exposure to credit losses. Further,
some banks (1) extended existing borrowing arrangements, including replenishing
interest reserves when payment was in doubt; (2) used interest reserves for highly
speculative loans, such as land purchases; and (3) did not always track, monitor, and
report on the use of interest reserves or their effect on the reported income of the
institution.




                                             19
FDIC Actions to Address Risks Associated with CRE and ADC Concentrations

As discussed previously, the FDIC has provided training, issued guidance, and updated
the ED Modules that examiners may use during examinations. Further, the FDIC has
taken action to enhance its offsite monitoring of banks that have significant CRE
concentrations and to identify emerging issues associated with those concentrations.

The FDIC’s concern with ADC lending dates as far back as October 1998 when the FDIC
issued FIL-110-98, Internal and Regulatory Guidelines for Managing Risks Associated
with Acquisition, Development, and Construction Lending, which states that ADC
lending is a highly specialized field with inherent risks that must be managed and
controlled to ensure that this activity remains profitable. However, regulatory concerns
with ADC lending were reinforced in December 2006, when the FDIC, the OCC, and the
FRB issued guidance, entitled, Concentrations in Commercial Real Estate Lending,
Sound Risk Management Practices (Joint Guidance), acknowledging that concentrations
in CRE lending coupled with weak loan underwriting and depressed CRE markets had
contributed to significant credit losses. The agencies reminded institutions and examiners
that institutions with concentrations in CRE loans should have risk management practices
and capital levels commensurate with the level and nature of their CRE concentration risk
and established concentration levels that may warrant greater supervisory scrutiny. The
Joint Guidance also describes a risk management framework to effectively identify,
measure, monitor, and control CRE concentration risk. That framework includes
effective oversight by bank management, including the Board and senior management,
and sound loan underwriting, administration, and portfolio management practices.

A summary of additional guidance related to CRE and ADC concentrations, including an
indication of whether the guidance addresses some of the more prevalent deficiencies
noted in our MLRs, issued both before and after our May 2009 memorandum, is provided
in Table 4.




                                           20
Table 4: CRE- and ADC-Related Guidance
 Date                                               Description of Guidance
                                                                                        Risk                  Interest
                                                                           Capital   Management      ALLL     Reserves
March      Managing CRE Concentrations in a Challenging                                                       
2008       Environment issued to re-emphasize the importance of
           strong capital and the ALLL, and robust credit risk
           management practices for state nonmember institutions
           with significant CRE and ADC concentrations. The FIL
           also emphasized the need to ensure banks have sufficient
           staff and necessary skill sets to properly manage increased
           problem loans and workouts.
July       Supervising Institutions with CRE Concentrations issued                                            
2008       to update and reemphasize CRE loan examination
           procedures in view of the then-developing challenging
           market conditions, particularly in ADC lending. The
           guidance also states that for institutions with a significant
           CRE and/or ADC concentration, examiners should
           develop an understanding of the concentration, market
           conditions, effectiveness of management’s underwriting
           and credit risk management practices, adequacy of capital,
           and appropriateness of the ALLL. The guidance also
           discusses concerns regarding the use of interest reserves.
October    The Federal Financial Institutions Examination Council                                              
2009       (FFIEC)16 agencies issued the Policy Statement on
           Prudent Commercial Real Estate Loan Workouts to banks.
           The FDIC issued additional guidance in May 2010 and
           provided instructions for prudent loan workouts.
April      Clarification of Calculation in Guidance on Commercial
2010       Real Estate issued to address the calculation of the total
           CRE loan ratio specified in the 2006 Joint Guidance on
           Concentrations in Commercial Real Estate Lending,
           Sound Risk Management Practices. The guidance
           addresses how examiners should calculate and report a
           bank’s total owner-occupied and non-owner-occupied
           CRE and total CRE risk exposure commensurate with
           Consolidated Reports of Condition and Income
           instructions for reporting CRE.
Source: DSC guidance issued to examiners.
* DSC issued FIL-43-2009, entitled, Allowance for Loan and Lease Losses, which provided additional
guidance on the methodologies and funding for an appropriate ALLL.


The FDIC has also used an analytical and reporting tool, implemented in late 2008, that
provides quarterly analyses to identify factors likely to impact institutions and determine
which institutions are most likely to be vulnerable to the risk factors identified. More
specifically, the tool enables DSC’s staff to assess the condition of a bank’s CRE and
ADC underwriting and credit administration, market areas, exposure, and compliance
with the 2006 Joint Guidance. Results of the offsite monitoring are shared with DSC


16
  The FFIEC was established in March 1979 to prescribe uniform principles, standards, and report forms
and to promote uniformity in the supervision of financial institutions. The Council has six voting members:
the FRB, FDIC, National Credit Union Administration, OCC, OTS, and State Liaison Committee
(composed of five representatives of state agencies that supervise financial institutions).


                                                     21
regional offices, which in turn conduct targeted reviews of banks with high exposure and,
when determined necessary, assign interim ratings downgrades.

To further assist examiners, the FDIC has developed a comprehensive examiner resource
tool that includes references to policy guidance, appraisals, examiner tools, market
analyses and articles, CRE data resources, and other CRE-related guidance from agencies
such as the OCC and FRB. Finally, the FDIC is participating in a review of possible
lessons learned from the financial crisis and what training and/or examination guidance
might be needed in this area. This review is being conducted under the auspices of the
FFIEC Task Force on Supervision.17

FDIC Actions to Address Risks Associated with Inadequate Credit Risk Management
Practices

In addition to the Joint Guidance, Appendix A to Part 365 of the FDIC Rules and
Regulations, entitled, Interagency Guidelines for Real Estate Lending Policies, provides
guidance regarding loan portfolio management considerations, loan administration,
underwriting standards, supervisory loan-to-value limits, and review of real estate lending
policies. Further, Appendix A to Part 364, entitled, Interagency Guidelines Establishing
Standards for Safety and Soundness, provides additional guidance regarding various
operational and managerial standards, including, but not limited to, loan documentation,
credit underwriting, and asset growth. As indicated previously in Table 4, the FDIC has
issued supplemental guidance on credit risk management practices, ALLL, and interest
reserves.

Regarding credit risk management practices, the guidance generally emphasizes the need
for financial institutions to reflect the principles of the 2006 Joint Guidance and
recognizes the importance of robust credit risk management practices. For example,
FIL-22-2008, Managing CRE Concentrations in a Challenging Environment, specifically
addresses the need to:

        increase or maintain strong capital levels;
        ensure that the ALLL methodology and funding are adequate;
        manage CRE and ADC loan portfolios closely, maintaining prudent lending
         policies, understanding the concentrations, developing strong credit review and
         risk rating systems, and effectively managing interest reserve and loan extensions;
        maintain updated financial and analytical information related, but not limited to,
         borrower financial statements, global financial analyses, and updated appraisals;
         and
        ensure the bank has an adequate loan workout infrastructure with a sufficient level
         of staff and with appropriate skill sets, to properly manage an increase in problem
         loans and workouts.

17
  The Task Force on Supervision coordinates and oversees matters relating to safety-and-soundness
supervision and examination of depository institutions, and provides a forum for the member banking
agencies and State Liaison Committee to promote quality, consistency, and effectiveness in examination
and supervisory practices.


                                                   22
In addition, RD memorandum 2008-021, Supervising Institutions with CRE
Concentrations, states that examiners should develop a comprehensive understanding of
the concentration; market conditions affecting the institution; the effectiveness of
management’s underwriting and credit risk management practices; the adequacy of
capital; and the appropriateness of the level of the ALLL, particularly when reviewing
institutions that hold a significant ADC concentration and whose loans are collateralized
by properties in weak real estate markets. The guidance also states, in part, that
examiners should evaluate the underwriting standards, loan administration, loan workout
procedures, and conformance with Part 365 of the FDIC Rules and Regulations.

Further, in March 2009, the FDIC issued additional guidance related to appraisals in an
RD memorandum entitled, Re-appraising/Re-evaluating Real Property. The
memorandum provides guidance regarding the review of a bank’s process for monitoring
real estate collateral values, including CRE loans, and the determination of whether a
bank’s methodologies provide reliable collateral values based on current market
conditions and are suitable for the bank’s overall risk profile. The guidance also
discusses the need for financial institutions to establish and maintain a system to identify
problem assets, estimate the inherent losses, and establish sufficient reserves to absorb
estimated losses. If an examiner determines the methodology to be inadequate, the
guidance states that examiners should consider citing an apparent contravention to the
Interagency Appraisal and Evaluation Guidelines or Appendix A to Part 365 and
Appendix A to Part 364, as appropriate.

FDIC Actions to Address Risks Associated with Interest Reserves

The FDIC’s concern regarding financial institutions’ use of interest reserves was first
noted in guidance issued by the DSC Atlanta Regional Office in November 2007. This
guidance identified applicable “red flags” that may merit further investigation, possible
criticism, and determination of whether a bank has sound policy regarding the use of
interest reserves and the reporting of related deficiencies, and acknowledged that
requesting information on interest reserves should provide insight into the level of risk in
a bank’s credit portfolio. The FDIC’s concern regarding the inappropriate use of interest
reserves was reiterated in additional guidance issued during March and July 2008, and
October 2009, as noted previously in Table 4, and in the Forward-Looking Supervision
training, which addressed the risks associated with inappropriate use of interest reserves.

Supplemental guidance regarding interest reserves was also included in a May 2008 Risk
Analysis Center (RAC)18 presentation, which focused on the use of interest reserves in
ADC lending, examined the risks this underwriting practice presents, and reviewed
regulatory guidance on the use of interest reserves. The presentation also included a
discussion of “red flags” that should alert lenders to potential problems at each stage of
the ADC cycle and reinforced the importance of evaluating the appropriateness of interest
reserves when ADC projects become troubled. This presentation was adapted from

18
  Guided by the FDIC’s National Risk Committee and the RAC Management Committee, the RAC serves
as a clearinghouse for information generated by the regions, sponsors a number of projects involving risk-
related issues, and features presentations on risk-related topics.


                                                    23
A Primer on the Use of Interest Reserves, an article that was released in the Summer
2008 issue of the Supervisory Insights Journal. That article identified risks associated
with interest reserves, reviewed regulatory guidance, and highlighted the importance of
evaluating the appropriateness of interest reserves.

Large Borrowing Relationships and Individual Concentrations

In addition to CRE and ADC concentrations, the MLRs indicated that failed financial
institutions frequently developed large borrowing relationships and/or individual
concentrations that resulted in substantial losses to the DIF, without implementing
adequate risk management controls to mitigate the risks and frequently exceeded legal
lending limits. Loans that are concentrated in one borrower, to a large degree, are
predicated on the individual’s financial capability, which can be significantly impacted
by economic decline or overextension of credit.

FDIC Actions to Address Risks Associated with Large Borrowing Relationships and
Individual Concentrations

Although we identified examiner guidance related to the risks associated with large
borrowing relationships and individual concentrations, we did not identify any specific
guidance issued to financial institutions on this subject.

The FDIC defines an individual concentration of credit as one in which obligations of
25 percent of more of Tier 1 Capital are made to an individual borrower, small
interrelated group of individuals, single repayment source, or individual project. DSC’s
Examination Manual provides examiner guidance related to concentrations including, but
not limited to, the potential need for higher capital levels to address the associated risks
and the assessment of management’s ability to adequately manage the risks. In addition,
the Examination Manual states that:

      bank management should consider the need to track and monitor the economic
       and financial condition of specific geographic locations, industries, and groups of
       borrowers in which the bank has invested heavily;

      all concentrations should be monitored closely by bank management and receive
       an in-depth review; and

      failure to monitor concentration can result in management being unaware of how
       significant economic events might impact the overall portfolio.

Our review of DSC’s FILs did not identify any guidance specifically issued to institutions
that addresses large borrowing relationships or individual concentrations of credit,
although DSC officials stated that the Examination Manual is available as a reference to
all insured financial institutions and includes relevant guidance. Nevertheless, given the
extent to which this issue played a role in significant losses to the DIF, it may be prudent
for the FDIC to more directly communicate supervisory expectations to financial



                                             24
institutions that would be beneficial in their identification and mitigation of the risk
associated with these concentrations.

Use of Non-core Sources to Fund Asset Growth

As mentioned previously, the MLRs indicated that failed financial institutions were prone
to relying heavily on non-core funding sources, especially brokered deposits,19 to achieve
rapid asset growth, and the extent of that funding and/or other non-core funding often
significantly and consistently exceeded the bank’s peer group. We also identified
instances in which banks that were deemed to be Adequately Capitalized for PCA
purposes continued to increase, roll over and/or renew brokered deposits, without an
approved brokered deposit waiver, in direct contradiction to section 29 of the FDI Act
and Part 337.6 of the FDIC Rules and Regulations.20 In addition, the MLRs noted that
financial institutions did not always have a well-developed contingency funding plan
(CFP).

FDIC Actions to Address Risks Associated with Non-core Funding

To address this issue, the Forward-Looking Supervision training emphasizes the risks that
the use of non-core funding sources can present to financial institutions. Further, the
FDIC has issued additional guidance regarding the consideration of brokered deposits in
the deposit insurance risk assessment process, use of such funding sources for institutions
that are in a weakened condition, processing of requests for brokered deposits waivers,
and interest rate restrictions for banks that are less than Well Capitalized.

On March 2, 2009, the FDIC issued FIL-12-2009, Deposit Insurance Assessments: Final
Rule on Assessments; Amended FDIC Restoration Plan; Interim Rule on Emergency
Special Assessment, which, among other things, notified financial institutions of how
brokered deposits would be considered as one of the determining factors for deposit
insurance risk assessment. The consideration of brokered deposit levels as a factor in
determining deposit insurance assessment rates for certain institutions pursuant to
changes in the FDIC regulation regarding the risk-based assessment system became
effective April 1, 2009.

In addition, according to FIL-13-2009, The Use of Volatile or Special Funding Sources
by Financial Institutions That are in a Weakened Condition, dated March 3, 2009, FDIC-
supervised institutions, regardless of their CAMELS ratings, that engage in aggressive
growth strategies or rely excessively on a volatile funding mix are subject to heightened
offsite monitoring and onsite examinations that are more extensive than for other
institutions. Those funding strategies, in certain circumstances, may result in higher
deposit insurance premiums. Further, those institutions that are in a weakened condition

19
   Section 29 of the FDI Act and Part 337.6 of the FDIC Rules and Regulations address restrictions placed
on financial institutions that are deemed to be less than Well Capitalized for PCA purposes, including the
use of brokered deposits and interest-rate risk restrictions.
20
   FDIC Rules and Regulations provide that a bank is considered notified of its capital category as of the
most recent (1) filing of its Call Report, (2) delivery of the final ROE, or (3) written notice from the FDIC.


                                                      25
(i.e., institutions rated “3”, “4”, or “5”) are expected to implement a plan to stabilize or
reduce risk exposure and limit growth. The guidance also addresses requirements that
may be included in corrective programs related to the use of volatile funding sources.

Section 29 of the FDI Act and Part 337.6 of the FDIC Rules and Regulations govern
restrictions on the use of brokered deposits and the rate of interest paid on deposits for
insured institutions that are less than Well Capitalized as defined in section 38 of the
FDI Act. For example:

        Financial institutions that are less than Well Capitalized and are considered to be
         Adequately Capitalized for PCA purposes are not allowed to accept, roll over, or
         renew brokered deposits in accordance with section 29 of the FDI Act and
         Part 337.6 of the FDIC Rules and Regulations without applying for and receiving
         a waiver from the FDIC. In November 2009, the FDIC issued examiner guidance
         entitled, Processing Brokered Deposit Waiver Requests, to clarify procedures for
         expedited processing, acknowledging brokered deposit waiver requests, elevating
         concurrence to the headquarters level until further notice, and shortening the
         period for approved applications from 2 years to no longer than 6 months. To
         provide additional examiner guidance, the FDIC is developing a new ED Module
         specifically related to the examination of brokered deposits and other higher-cost
         deposits.

        Regarding interest rate restrictions, PCA requires the FDIC to prevent banks that
         are less than Well Capitalized from paying deposit interest rates that significantly
         exceed prevailing rates as defined under Part 337.6. Recognizing the challenges
         that the current economic conditions present to financial institutions, the FDIC
         issued various FILs regarding this issue:

            o   FIL-25-2009, Interest Rate Restrictions on Institutions That are Less Than
                Well-Capitalized, dated May 29, 2009;
            o   FIL-62-2009, Determining Conformance with Interest Rate Restrictions
                for Less Than Well-Capitalized Institutions, dated November 3, 2009;
            o   FIL-69-2009, Process for Determining If An Institution Subject to Interest-
                Rate Restrictions is Operating in a High-Rate Area, dated December 4,
                2009; and
            o   FIL-2-2010, Financial Institution Management of Interest Rate Risk, dated
                January 20, 2010, which reminds institutions of supervisory expectations
                regarding sound practices for managing interest rate risk.

Further, in April 2010, the FDIC provided clarification regarding the classification of
time deposits from $100,000 to $250,00021 from non-core to core deposits. In part, the
guidance states that:



21
  The Financial Reform Act permanently increased the deposit insurance amount to $250,000 and made
the increase retroactive to January 1, 2008.


                                                 26
      examiners should continue to perform an assessment of the stability of an
       institution’s deposit base;

      non-brokered time deposits maturing before year-end 2013 with balances between
       $100,000 and $250,000 that do not exhibit certain risk characteristics should be
       considered core deposits for purposes of the liquidity assessment; and

      for purposes of liquidity evaluations, examiners are expected to consider the
       stability of a bank’s deposit base, including such factors as whether the deposits
       are obtained locally and the existence of an ongoing customer relationship; and
       brokered deposits are not included in core deposits.

In addition, the FDIC issued FIL-13-2010, Funding and Liquidity Risk Management,
dated April 5, 2010, to re-emphasize the significance of diversified funding sources, a
well-developed CFP, and expectations for each financial institution to manage funding
and liquidity-related risk in a manner that is commensurate with the bank’s complexity,
risk profile, and operations. This guidance specifically indicated that institutions that use
non-core funding sources such as brokered deposits should ensure that their CFPs address
relevant stress events and outline practical and realistic funding alternatives that are
accessible when funding becomes restricted.

Another common issue in our MLRs related to non-core funding is that, absent a waiver
from the FDIC, banks may not accept, renew, or roll over brokered deposits when the
banks are determined to be Adequately Capitalized. In that regard, a September 30, 1996
RD Memorandum entitled, Use of Notification and Reconfirmation Letters
Under Prompt Corrective Action, requires that DSC send PCA notification letters to
insured depository institutions that become Undercapitalized, Significantly
Undercapitalized, or Critically Undercapitalized, for which the FDIC is the primary
federal regulator. We found, however, as a matter of practice, that DSC regional offices
often sent such notifications to institutions that had been determined to be Adequately
Capitalized. Those notifications advised the bank, among other things, of the brokered
deposit restrictions. In certain cases when such a notification was not provided, we
determined that institutions continued to use, increased, and/or rolled over these
potentially volatile deposits to fund additional growth in risky loans.

DSC officials provided copies of PCA-related notifications that its regional offices
indicated are provided to Adequately Capitalized and Undercapitalized banks. DSC also
emphasized that additional examiner guidance discussed later in this report addresses
DSC’s ability to better address risks taken by certain financial institutions, including
those that increase their reliance on brokered deposits or higher-cost deposits. However,
DSC has learned a great deal since issuing the guidance in 1996, and our MLRs have
shown an apparent deterrent and mitigating effect associated with the Adequately
Capitalized notifications. Therefore, it may be prudent for DSC to review existing
guidance on PCA notifications and further communicate, if appropriate, DSC’s
expectations regarding written PCA-related notifications.




                                             27
Assessment of Purchased Participation Loans and Security Investments

The causes of failure for failed banks reported in the MLRs were not limited to CRE
and/or ADC concentrations. Rather, those reports also noted significant losses associated
with purchased participation loans and security investments and inadequate controls,
including the lack of, or failure to follow, related policies to address the associated risks.

Purchased Participation Loans. The MLRs identified instances in which banks
purchased loans outside of their lending territories in order to rapidly grow their loan
portfolios or change the banks’ business strategy. However, bank Boards and
management purchased these loans without ensuring that adequate due diligence and
credit administration were performed and without adequate consideration of the third-
party risk these purchases presented to the institution. In addition, bank management did
not ensure that adequate loan policies were developed or failed to ensure that staff
followed established policies and concentration limits. In many cases, these purchased
participation loans consisted primarily of CRE and/or ADC loans, which further
increased the risks to the institution.

Security Investments. The MLRs reported a number of instances in which financial
institutions experienced significant losses associated with concentrations and investments
in CDOs, CMOs, and GSEs, such as Fannie Mae and Freddie Mac preferred stock. In
addition, with respect to bank Boards and management, in some of the MLRs, we
reported instances in which there was insufficient expertise to manage the investments, a
lack of formal investment policies and established investment limits, inadequate
methodologies to value the investments, and a lack of exit strategies to address downturns
in the market. Further, we noted in some instances that, as with purchased participation
loans, bank management did not ensure that staff followed established investment
policies.

FDIC Actions to Address Purchased Participation Loans

The FDIC has issued financial institution and examiner guidance related to third-party
risk. Specifically:

      The FDIC issued FIL-44-2008, Guidance for Managing Third-Party Risk, dated
       June 6, 2008, which describes potential risk arising from third-party relationships
       and outlines risk management principles that may be tailored to suit the
       complexity and risk potential of a financial institution’s significant third-party
       relationships.

      On January 9, 2009, the FDIC announced the creation of an ED Module that will
       assist examiners in assessing third-party risk to institutions. The purpose of the
       reference module is to support examination guidance and serve as an additional
       resource when evaluating practices related to management of third-party
       arrangements.




                                             28
Although FIL-44-2008 addresses the credit risk that third-party relationships can present
to financial institutions, the financial institution guidance does not appear to specifically
address issues identified in the MLRs. Specifically, FIL-44-2008 does not address
participation loans and the FDIC’s expectation that institutions purchasing participation
loans (1) must make a thorough, independent evaluation of the transaction and the risks
involved before committing funds and (2) should apply the same standards of prudence,
credit assessment, approval criteria, and “in-house” limits that would be employed if the
institution were originating the loan.

In addition, examiner guidance included in the Examination Manual appears to be more
comprehensive regarding the risks associated with purchased participation loans and
states that a bank purchasing participation loans (1) is expected to perform the same
degree of independent credit analysis on the loan as if it were the originator, (2) should
monitor the servicing and status of the loan, and (3) should include procedures for
purchasing loan participations in the bank’s formal lending policy. Examiner guidance
also states that if not appropriately structured and documented, a participation loan can
present unwarranted risks to both the seller and purchaser of the loan. However,
reference to credit risk and purchased loans in financial institution guidance provided in
FIL-44-2008 is limited to the following:

       Credit risk also arises from the use of third parties that market or originate
       certain types of loans, solicit and refer customers, conduct underwriting
       analysis, or set up product programs for the financial institution.
       Appropriate monitoring of the activity of the third party is necessary to
       ensure that credit risk is understood and remains within board-approved
       limits.

DSC officials stated that the Examination Manual is available to financial institutions and
further believes that this guidance coupled with FIL-44-2008 and Appendix A of Part 364
of the FDIC Rules and Regulations sufficiently communicates DSC’s expectations
regarding loan participations. In our view, given the extent to which purchased loan
participations and the lack of adequate risk management controls associated with the
underwriting and administration of those loans contributed to significant losses to the
DIF, it may be prudent for the FDIC to reiterate its supervisory expectations in this area
to financial institutions.

FDIC Actions to Address Security Investments

The FDIC recognized that some financial institutions’ securities investments such as
mortgage-backed securities, CDOs, and asset-backed securities were experiencing
financial deterioration due to deteriorating collateral, prices, performance, and ratings
downgrades. DSC has issued updated guidance addressing risk management of
investments in structured credit products that provides clarification to existing guidance.
Specifically, during April 2009, the FDIC issued FIL-20-2009, Risk Management and
Investments in Structured Credit Products. The FIL reiterates and provides clarification
of existing guidance on the purchase and holding of complex structured credit products,
including CDOs and MBS, and addresses credit ratings, risk limits, valuation and capital


                                              29
treatment, and pre-purchase analysis. In addition, the FDIC has purchased a valuation
tool that will allow the Corporation to better determine the cash flows and value of
complex investment securities and, thereby, more effectively and timely identify the risks
associated with those investments.

Issuance and Monitoring of Supervisory and Enforcement Actions

Generally, our MLRs determined that earlier and greater supervisory concern may have
been prudent to address the risk that examiners identified during examinations of failed
banks that resulted in material losses to the DIF. In many cases, examiners identified
significant risks but did not take timely and effective action to address those risks until
the bank had started to experience significant financial deterioration in the loan or
investment portfolios.

FDIC Actions to Address Supervisory and Enforcement Actions

Regarding supervisory and enforcement actions, the FDIC’s Forward-Looking
Supervision training addresses the need for timely communication of risks to financial
institutions and prompt supervisory and enforcement actions, examiner follow-up, onsite
examinations and offsite monitoring, and capital adequacy.

In addition, in July 2009, the FDIC issued an RD memorandum, entitled Meetings,
Visitations, Limited-Scope Examinations, and Quarterly Progress Reports Related to
Risk Management Corrective Programs, to emphasize the importance of monitoring
institutions subject to enforcement actions and clarify expectations for quarterly progress
reporting, meeting with an institution’s Board at the beginning of a corrective program,
and conducting onsite supervisory activities between examinations. The memorandum
also emphasized that an introductory meeting with an institution’s Board at the beginning
of a corrective program can provide a useful forum for articulating supervisory
expectations and ensuring the institution understands each of the program’s requirements.

In February 2009, DSC implemented a policy to issue letters to financial institutions
notifying them of concerns regarding identified risks at banks newly-rated “4” and “5”
and some banks rated “3”. As a follow-up to this policy, in September 2009, the FDIC
issued additional guidance entitled, Issuing Examination Letters to Troubled Institutions,
to assist in ensuring timely and effective supervisory action for institutions that are
newly-rated “3”, “4”, and “5” and revised the applicable procedures to include banks
rated “3” because previous guidance only related to banks rated “4” and “5”.22 The
purpose of the guidance is to control new risk at the banks, such as asset growth and
changes in funding strategies to increase reliance on non-core funding or high-rate
deposits, temporarily insured deposits, or other government-guaranteed debt. In
summary, the guidance:



22
  Certain circumstances that may negate the need to issue the examination letter include instances in which
banks are already subject to a C&D order or a PCA Directive.


                                                    30
      enhances the methods used to notify troubled banks of supervisory concerns,
       including potential downgrades; extends the “troubled bank” designation to include
       banks recently rated “3” (previously limited to banks rated “4” and “5”); provides
       for the issuance of Examination Letters to financial institutions during state
       examinations in which a downgrade is expected; and encourages the coordination
       with state regulatory agencies during state-conducted examinations;

      outlines expectations for examiners to monitor banks during the examination
       review period and until a corrective action program is in place—one that requires
       notification to the FDIC of plans for asset growth or restructure of funding to rely
       on brokered deposits;

      encourages the use of immediate corrective measures, including a Temporary C&D
       order issued pursuant to section 8(c) of the FDI Act, in certain higher-risk
       circumstances; and

      requires examiner follow-up to assess bank compliance with the Examination
       Letter, corrective actions taken by bank management to address deficiencies, and
       determination of whether additional supervisory action may be necessary to
       address bank management actions.




               [Information regarding internal guidance associated with
                       enforcement actions has been omitted.]




During January 2010, the FDIC issued guidance entitled, Insured Institutions Projected
Failure Report, Supervisory Histories, Prompt Corrective Action Tracking Report, and
Critically Undercapitalized Institutions Report. In addition to other instructions, the
guidance provides information regarding weekly and/or quarterly reporting of institutions



                                             31
that are designated as Undercapitalized, Significantly Undercapitalized, and Critically
Undercapitalized for PCA purposes.

Enhanced Offsite Monitoring

The MLRs identified instances in which offsite monitoring activities did not result in a
substantial change in the supervisory strategy for the failed banks, although risks were
apparent during periods before and between examinations.

FDIC Actions to Address Offsite Monitoring

Although the FDIC continues to use its traditional offsite monitoring tools, such as GMS,
SCOR, and REST indicators, the Corporation has taken steps to enhance its offsite
monitoring activities for various high-risk issues, including, but not limited to, de novo
institutions with outstanding MRBA. Further, the FDIC identifies offsite and onsite
examination metrics that more accurately recognize the risks embedded in the balance
sheets and operations of highly-rated institutions that have not yet experienced significant
financial deterioration.

In addition, the FDIC has strengthened various offsite monitoring systems, increased
communication with DSC regional offices regarding offsite monitoring results, and uses
various analytical and reporting tools to assist in identifying risk and determining which
institutions may be impacted. For example, the FDIC:

      uses an analytical and reporting tool, implemented in late 2008, that provides
       quarterly analyses to identify factors likely to impact institutions and determine
       which institutions are most likely vulnerable to the risk factors identified. More
       specifically, the tool enables DSC’s staff to assess the condition of a bank’s CRE
       and ADC underwriting and credit administration, market areas, exposure, and
       compliance with the 2006 Joint Guidance. Results of these offsite monitoring
       activities and others are shared with DSC regional offices, which in turn are to
       conduct targeted reviews of banks with high exposure and, when determined
       necessary, assign interim ratings downgrades.

      uses automated systems to track MRBA to ensure timely and more effective
       examiner follow-up and determination of whether additional supervisory and/or
       enforcement actions may be needed for outstanding MRBA.

      has established a new risk committee to use information obtained from regional
       risk committee reports to identify issues for specific follow-up and analysis. The
       committee, which meets semiannually, is composed of DSC and Division of
       Insurance and Research regional and headquarters representatives who discuss
       existing offsite monitoring systems, supplemental offsite review lists, regional
       monitoring efforts, and the effectiveness of each in identifying potential
       downgraded institutions. As with other offsite monitoring results, these activities
       lead to follow-up through visitations, examinations, and/or interim rating changes,
       as deemed necessary.


                                             32
Further, the FDIC is conducting activities to proactively identify issues that could present
supervisory concern to those institutions currently rated “1” or “2”. Supervisory
concerns regarding high-risk profiles and actions to enhance supervisory strategies have
not been limited to banks rated “3”, “4”, or “5”, but have become more focused on banks
rated “1” and “2” to identify risks before financial deterioration occurs and on emerging
issues that could present a risk to the DIF. The goal of the enhanced offsite monitoring
activities is to identify risks earlier, ensure that CAMELS ratings reflect such risks, and
implement a supervisory approach to limit the risks. In addition, the FDIC conducts
stress tests on various issues and implements a forward-looking approach to identify
institutions with a higher probability of risk and greater potential for downgrades in
CAMELS ratings. Such testing is based on offsite data, including economic trends,
financial ratios, and examiner input on banking practices.

In addition, the FDIC conducts ad hoc offsite monitoring activities on targeted issues
such as:

      the adequacy of financial institutions’ ALLL;

      financial institutions that make significant dividend payments while experiencing
       significant losses or obtaining funding from government-assisted programs, such
       as the Troubled Asset Relief Program (TARP) Capital Purchase Program (CPP)
       or the Temporary Liquidity Guarantee Program (TLGP) debt guaranty. As such:

            o   In March 2009, the FDIC issued additional examiner guidance entitled,
                Examination Guidance for Financial Institutions Receiving Subscriptions
                from the U.S. Department of the Treasury’s TARP CPP Program to
                assess institutions’ compliance with the CPP program.

            o   In addition, in September 2009, the FDIC issued additional examiner
                guidance entitled, Documenting TARP CPP and TLGP Participation in
                Problem Bank Memoranda and Supervisory Histories, regarding the
                documentation of TARP CPP and TLGP participation in memoranda
                related to problem banks and financial institution supervisory histories.

            o   In March 2010, the FDIC issued additional guidance entitled, Monitoring
                Exposures in Government Assistance Programs, which updated
                examination guidance related to such government-assistance programs;
                and

      financial institutions with significant investments in Trust Preferred CDOs to
       identify institutions at risk and facilitate the FDIC’s understanding of the risk.




                                             33
Further Enhancements to the FDIC’s Supervision Program
In addition to those actions more directly related to MLR trends and issues, the FDIC has
made other enhancements to its supervision program based on (1) actions taken by DSC
regional offices, which include, but are not limited to, actions to address lessons learned,
training and outreach to the banking industry, and increased offsite monitoring; and
(2) internal analyses. A brief summary of some other significant enhancements follows.

Coordination Between Risk Management and Compliance Examinations

The FDIC’s Forward-Looking Supervision training stressed the need to ensure effective
and timely coordination between risk management and compliance examination results
and supervision strategies. For example, the training emphasized:

   •   timely communication and coordination between DSC’s risk management and
       compliance functions to inform one another of important issues/concerns and to
       schedule targeted visits as appropriate;

   •   the need to consider consumer protection concerns within CAMELS ratings, such
       as the management and liquidity components; and likewise, that relevant risk
       management issues should be considered by the compliance staff during the
       compliance assessment and ratings determinations.

Coordination and Approval of Charter Conversions

Although not a direct cause of failure in any of our MLRs, some of the FDIC-supervised
banks had converted to a state nonmember charter shortly before failure. To address
concerns with the motives behind such charter conversions, the FDIC, the other FFIEC
agencies, and state regulatory agencies have taken action to address such conversions.
Specifically, during July 2009, the FDIC issued FIL-40-2009, FFIEC Statement on
Regulatory Conversions, to reaffirm that charter conversions or changes in the PFR
should only be conducted for legitimate business and strategic reasons. FIL-40-2009
states that although financial institutions may choose to operate under the state or federal
charter that best accommodates their legitimate business and strategic needs:

      conversion requests submitted while serious or material enforcement actions are
       pending should not be entertained;

      institutions that intend to change their charter or banking supervisor will continue
       to seek approval through an application process with the prospective chartering
       authority and primary federal regulator, in consultation with state authorities;

      assigned ratings and outstanding corrective programs will remain in place
       following a charter conversion and/or supervisory agency change; and




                                             34
      any regulatory conversion request involving an institution with a current or
       proposed rating of “3”, “4”, or “5” (or “Needs Improvement” or “Substantial
       Noncompliance” regarding CRA performance), or is subject to a serious or
       material current or pending corrective program, will require consultation by the
       prospective supervisor with the FDIC and with the Federal Reserve Board as
       holding company supervisor.

To facilitate an understanding of the current financial condition of the institution
requesting a charter change, the prospective supervisor may choose to conduct an
eligibility examination and may invite the current supervisor to participate in that
examination. In addition, the current supervisor and prospective supervisor should
closely coordinate regarding the examination program, including plans for ratings
downgrades and enforcement actions.

Enhanced Backup Examination Authority

During July 2010, the FDIC and its Board of Directors revised its previously agreed-upon
Memorandum of Understanding with the PFRs to enhance the FDIC’s existing backup
authorities for insured depository institutions for which the FDIC is not the primary
regulator. The revised MOU will improve the FDIC’s ability to access information
necessary to understand, evaluate, and mitigate its exposure to insured depository
institutions, especially the largest and most complex.

Specifically, the revised MOU gives the FDIC back-up supervision authority under an
expanded list of circumstances, including when:

      the insurance pricing system suggests an insured depository institution might be at
       higher risk,

      institutions are defined as “large” under international regulatory guidelines, or

      large interconnected bank holding companies are defined as “systemic” by the
       Financial Reform Act.

Further, the FDIC will establish an expanded continuous, full-time staff presence onsite
at large, complex insured depository institutions.

Financial Reform Act Requirements
In addition to the actions that the FDIC has already taken or planned to take relative to
MLR-related trends, we note that the Financial Reform Act places specific requirements
on the FDIC, along with other federal regulatory agencies. Regarding the FDIC, the
Financial Reform Act requires the Corporation to implement actions that impact its
supervisory response to MLR-related trends, as well as other issues. For example, the
Financial Reform Act addresses issues such as, but not limited to, definitions of core and
brokered deposits and the potential impact on the DIF, and the competitive parity



                                            35
between large institutions and community banks that could result from redefining core
deposits; executive compensation and corporate governance, non-recognition of trust
preferred securities as regulatory capital, limitations on reliance on credit rating agencies,
back-up examination and enforcement authorities, and enhanced restrictions on bank
transactions with affiliates.

Conclusion and Recommendations
The FDIC has responded to the MLRs we have issued in a constructive, proactive
manner. Although we have opted not to make recommendations based on findings in any
individual MLR, the Corporation has nevertheless taken timely corrective action to
address substantially all of the issues and trends we have identified.

Given the limited time that had elapsed since DSC had initiated the various forward-
looking supervision initiatives and issued new or updated guidance, we determined it was
premature to assess the effectiveness of the various initiatives the FDIC has put in place
to enhance its supervision program. However, we are recommending that the Director,
DSC, consider taking the following steps to further improve the FDIC’s supervision
program based on the high-level policy analysis we performed.

    (1) Update OJT reference guides, where appropriate, to reflect significant guidance
        associated with common issues identified in MLRs such as CRE and ADC
        lending, concentrations, and de novo bank supervision.

    (2) Review existing examiner guidance addressing examination coverage and
        assessment of dominant bank officials and determine whether a reiteration of that
        guidance and/or communication and clarification of DSC’s expectations in this
        area would be beneficial.

    (3) Review existing financial institution guidance to determine whether additional
        guidance related to large borrowing relationships and individual concentrations
        would be beneficial in communicating supervisory expectations for identifying
        and mitigating the risk associated with these concentrations.

    (4) Review existing guidance on PCA notifications and further communicate, if
        appropriate, DSC’s expectations regarding written notifications of the applicable
        restrictions based on section 29 of the FDI Act and Part 337.6 of the FDIC Rules
        and Regulations to Adequately Capitalized banks.

    (5) Review existing financial institution guidance related to purchased participation
        loans to determine whether and how the FDIC could further communicate
        supervisory expectations regarding the controls necessary to mitigate risk
        associated with the participations.

We appreciate the positive and cooperative response that all levels of the FDIC have
taken as a result of our MLRs. We are committed to continuing a broad, constructive


                                              36
approach to sharing our perspectives with FDIC management and other stakeholders,
with the goal being to protect the DIF.

In closing, organizations must continually engage in identifying and evaluating potential
risks since governmental, economic, industry, legislative, and operating conditions
continually change. Further, in that same vein, an organization’s risk management
program should periodically assess management’s selected alternatives to address risk.
As it relates to the supervision program, the FDIC is beginning to implement significant
organizational and policy changes as a result of the Financial Reform Act and will
certainly be confronted with new legislative initiatives and a changing economic
landscape. As discussed earlier in our report, the FDIC Chairman, the Audit Committee,
and DSC have been thoroughly engaged and supportive of our MLR reports and put
mechanisms in place to ensure action is taken to address the findings. The challenge for
the FDIC will be to make certain its risk management program ensures that

      lessons learned become ingrained in day-to-day supervisory activities,

      the momentum of the forward-looking supervision approach is sustained
       regardless of the health of the economy or banking industry,

      corrective actions discussed in this report are effective in addressing identified
       trends and issues, and

      new risks that emerge through changes in the Corporation’s operating
       environment are considered and mitigated.

Corporation Comments and OIG Evaluation
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 21, 2010, the DSC Director provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC concurred
with each of the five recommendations. A summary of management’s response to the
recommendations is provided in Appendix 5.

In its response to recommendation 1, DSC stated that it will review the OJT reference
guides for significant updates related to common issues identified in MLRs and submit
any recommendations for changes to the FDIC’s Course Oversight Group for its
consideration. In response to recommendations 2 through 5, DSC stated that it will
conduct the necessary reviews of internal and external industry guidance and
communicate new guidance, as appropriate. DSC’s planned actions, which are to be
completed by June 30, 2011, are responsive to the OIG’s recommendations. All of the
recommendations are resolved and will remain open until we determine that the
agreed-upon corrective actions have been completed and are responsive to the
recommendations.




                                            37
                                                                             Appendix 1

                   Objectives, Scope, and Methodology


Objectives

Our audit objectives were to (1) determine the actions that the FDIC has taken to enhance
its supervision program since May 2009, including those taken specifically in response to
the May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs.

We conducted this performance audit from June 2010 to October 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of actions that the FDIC had taken or planned
to take in reference to MLRs conducted since the May 1, 2009 memorandum issued to
the FDIC Audit Committee and the MLR-related trends and issues discussed in that
memorandum. In addition, we reviewed other actions that the FDIC has taken or has
planned to further enhance the Corporation’s supervision. To a certain degree, we also
reviewed actions implemented during 2008 that may have related to MLR trends and/or
enhanced DSC’s supervision.

In addition, we (1) interviewed DSC officials in Washington, D.C., and regional office
officials, as appropriate; (2) reviewed the DSC Supervision Program Enhancements; and
(3) reviewed additional examiner and financial institution guidance issued to address
MLR-related trends and issues. We did not assess the effectiveness of all of the issued
examiner and financial institution guidance, examinations conducted, training initiatives,
or offsite monitoring activities that we reviewed because we did not believe such
assessment was necessary to adequately address the audit objectives.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess the FDIC’s overall internal control
or management control structure. We relied on information in DSC reports and
interviews of DSC officials to understand management controls pertaining to actions the
FDIC has taken or plan to take in response to the causes of failure and supervision-related
issues included in the OIG’s MLRs and other actions to further enhance the FDIC’s
supervision program.



                                            38
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

We determined that information system controls were not significant to the audit
objectives and, therefore, did not evaluate the effectiveness of information system
controls. We relied on our analysis of information from various sources, including DSC
Supervision Program Enhancements, and testimonial evidence, and our review of FDIC
examiner and financial institution guidance to address the audit objectives and support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this audit, we reviewed the FDIC Annual Plan, 2008-
2013 Strategic Plan, 2009 and 2010 Performance Goals and Stretch Objectives.
However, we did not assess the strengths and weaknesses of the FDIC’s annual
performance plan in meeting the requirements of the Results Act because such an
assessment was not part of the audit objectives. The FDIC’s compliance with the Results
Act is reviewed in program audits of FDIC operations.

Regarding compliance with laws and regulations, we did not perform tests to determine
FDIC compliance because we concluded that such determination was not necessary to
address the audit objectives. Further, we did not assess the risk of fraud and abuse related
to our objectives in the course of evaluating audit evidence because we concluded that
such determination was not necessary to address the audit objectives.


Related Coverage of Financial Institution Failures

The OIG’s May 1, 2009 internal memorandum that forms the basis for this report
outlined major causes, trends, and common characteristics of FDIC-supervised financial
institution failures that had resulted in a material loss to the DIF. The memorandum also
indicated that the OIG planned to provide more in-depth coverage of those issues and
make related recommendations, when appropriate. The OIG expects to do so during
2011.

Since May 1, 2009, the OIG has issued additional MLR and IDR reports related to
failures of FDIC-supervised institutions and these reports can be found at
www.fdicig.gov. In addition, with respect to more in-depth coverage of specific issues,
in May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action Provisions of the FDI Act (section 38, PCA and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                            39
                                                                                     Appendix 2

                                  Glossary of Terms

Term                                                     Definition
Acquisition,         ADC loans are a component of Commercial Real Estate that provide funding for
Development, and     acquiring and developing land for future construction, and providing interim
Construction (ADC)   financing for residential or commercial structures.
Loans

Allowance for Loan   The ALLL is an estimate of uncollectible amounts that is used to reduce the
and Lease Losses     book value of loans and leases to the amount that is expected to be collected. It
(ALLL)               is established in recognition that some loans in the institution’s overall loan and
                     lease portfolio will not be repaid. Boards are responsible for ensuring that their
                     institutions have controls in place to consistently determine the allowance in
                     accordance with the institutions' stated policies and procedures, generally
                     accepted accounting principles, and supervisory guidance.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution regulator
Order (C&D)          pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to stop an unsafe
                     or unsound practice or a violation of laws and regulations. A C&D may be
                     terminated when the bank’s condition has significantly improved and the action
                     is no longer needed or the bank has materially complied with its terms.
Commercial Real      CRE loans are land development and construction loans (including 1-to-4
Estate (CRE) Loans   family residential and commercial construction loans) and other land loans.
                     CRE loans also include loans secured by multifamily property and nonfarm
                     nonresidential property, where the primary source of repayment is derived from
                     rental income associated with the property or the proceeds of the sale,
                     refinancing, or permanent financing of the property.

Concentration        A concentration is a significantly large volume of economically related assets
                     that an institution has advanced or committed to a certain industry, person,
                     entity, or affiliated group. These assets may, in the aggregate, present a
                     substantial risk to the safety and soundness of the institution.

De novo bank         A de novo bank is a newly established bank that is in its first 7 years of
                     operation. De novo banks are subject to additional supervisory oversight and
                     regulatory controls, including the development and maintenance of a current
                     business plan and increased examination frequency.

Federal Home Loan    FHLBs provide long- and short-term advances (loans) to their members.
Bank (FHLB)          Advances are primarily collateralized by residential mortgage loans and
                     government and agency securities. Community financial institutions may
                     pledge small business, small farm, and small agri-business loans as collateral for
                     advances. Advances are priced at a small spread over comparable U.S.
                     Department of the Treasury obligations.

Growth Monitoring    GMS is an offsite rating tool that identifies institutions experiencing rapid
System (GMS)         growth or having a funding structure highly dependent on non-core funding
                     sources.




                                                40
                                                                                    Appendix 2

                                  Glossary of Terms

Term                                                     Definition
Interest Reserve     An interest reserve account allows a lender to periodically advance loan funds to
Account              pay interest charges on the outstanding balance of the loan. The interest is
                     capitalized and added to the loan balance. Frequently, ADC loan budgets will
                     include an interest reserve to carry the project from origination to completion
                     and may cover the project’s anticipated sellout or lease-up period.
Loan Participation   The transfer of an undivided interest in all or part of the principal amount of a
                     loan from a seller, known as the ‘‘lead’’, to a buyer, known as the
                     ‘‘participant’’, without recourse to the lead, pursuant to an agreement between
                     the lead and the participant. ‘‘Without recourse’’ means that the loan
                     participation is not subject to any agreement that requires the lead to repurchase
                     the participant’s interest or to otherwise compensate the participant upon the
                     borrower’s default on the underlying loan.

Material Loss        As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the Dodd-
                     Frank Wall Street Reform and Consumer Protection Act, for the period
                     beginning January 1, 2010 and ending December 31, 2011, a material loss is
                     defined as any estimated loss in excess of $200 million.

Memorandum of        A Memorandum of Understanding is an informal agreement between the
Understanding        institution and the FDIC, which is signed by both parties. The State Authority
(MOU)                may also be party to the agreement. MOUs are designed to address and correct
                     identified weaknesses in an institution’s condition.

Offsite Review       The Offsite Review Program is designed to identify emerging supervisory
Program              concerns and potential problems so that supervisory strategies can be adjusted
                     appropriately. Offsite reviews are performed quarterly for each bank that
                     appears on the Offsite Review List. Regional management is responsible for
                     implementing procedures to ensure that Offsite Review findings are factored
                     into examination schedules and other supervisory activities.

Prompt Corrective    The purpose of PCA is to resolve the problems of insured depository institutions
Action (PCA)         at the least possible long-term cost to the Deposit Insurance Fund. Part 325,
                     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal Regulations,
                     section 325.101, et. seq., implements section 38, Prompt Corrective Action, of
                     the FDI Act, 12 United States Code section 1831(o), by establishing a
                     framework for determining capital adequacy and taking supervisory actions
                     against depository institutions that are in an unsafe or unsound condition. The
                     following terms are used to describe capital adequacy: (1) Well Capitalized,
                     (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                     Undercapitalized, and (5) Critically Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective action or
                     compliance with the PCA statute with respect to an institution that falls within
                     any of the three categories of undercapitalized institutions.




                                               41
                                                                                      Appendix 2

                                   Glossary of Terms

Term                                                     Definition
Real Estate Stress    REST attempts to simulate what would happen to banks today if they
Test (REST)           encountered a real estate crisis similar to that of New England in the early
                      1990s. REST uses statistical techniques to forecast an institution’s condition
                      over a 3- to 5-year horizon and provides a single rating from 1 to 5 in
                      descending order of performance quality.

Statistical CAMELS    SCOR is a financial model that uses statistical techniques, offsite data, and
Offsite Rating        historical examination results to measure the likelihood that an institution will
(SCOR) System         receive a CAMELS downgrade at the next examination.
Structured Credit     The term is broadly defined to refer to all structured investment products where
Product               repayment is derived from the performance of the underlying assets or other
                      reference assets, or by third parties that serve to enhance or support the
                      structure. Such products include, but are not limited to, asset-backed
                      commercial paper programs, mortgage-backed securities or collateralized
                      mortgage obligations, and other asset-backed securities, such as automobile and
                      credit card-backed securities, structured investment vehicles, and collateralized
                      debt obligations, including securities backed by TruPs.

Uniform Financial     Financial institution regulators and examiners use the Uniform Financial
Institutions Rating   Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
System (UFIRS)        components represented by the CAMELS acronym: Capital adequacy, Asset
                      quality, Management practices, Earnings performance, Liquidity position, and
                      Sensitivity to market risk. Each component, and an overall composite score, is
                      assigned a rating of 1 through 5, with 1 having the least regulatory concern and
                      5 having the greatest concern.

Wholesale (Non-       Wholesale funding sources include, but are not limited to, Federal funds, public
core) Funding         funds, FHLB advances, the Federal Reserve’s primary credit program, foreign
                      deposits, brokered deposits, and deposits obtained through the Internet or CD
                      listing services. Financial institutions may use wholesale funding sources as an
                      alternative to core deposits to satisfy funding and liability management needs.




                                                 42
                                                                       Appendix 3

                             Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk
CDO      Collateralized Debt Obligation
CFP      Contingency Funding Plan
CMO      Collateralized Mortgage Obligation
CPP      Capital Purchase Program
CRA      Community Reinvestment Act
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DOF      Division of Finance
DSC      Division of Supervision and Consumer Protection
ED       Examination Documentation
FDI      Federal Deposit Insurance
FFIEC    Federal Financial Institutions Examination Council
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
FRB      Board of Governors of the Federal Reserve System
GMS      Growth Monitoring System
IDR      In-depth Review
MBS      Mortgage-Backed Security
MLR      Material Loss Review
MOU      Memorandum of Understanding
MRBA     Matters Requiring Board Attention
OCC      Office of the Comptroller of the Currency
OIG      Office of Inspector General
OJT      On-the-Job Training
PCA      Prompt Corrective Action
PFR      Primary Federal Regulator
RD       Regional Director
REST     Real Estate Stress Test
SCOR     Statistical CAMELS Offsite Rating
TARP     Troubled Asset Relief Program
TLGP     Temporary Liquidity Guarantee Program




                                    43
                                                                                       Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        December 21, 2010
TO:              Stephen M. Beard
                 Assistant Inspector General for Material Loss Reviews,
                 Office of Inspector General

                 /Signed/
FROM:            Sandra L. Thompson [signed by Sandra L. Thompson]
                 Director, Division of Supervision and Consumer Protection

SUBJECT:         Response to Draft Report Entitled:
                 Follow-up Audit of FDIC's Supervision Program Enhancements (2010-066)

The Division of Supervision and Consumer Protection (DSC) has received and considered the
recommendations from the recent Follow-up Audit of the FDIC’s Supervision Program
Enhancements. We appreciate that your report acknowledges the Federal Deposit Insurance
Corporation (FDIC) has taken a constructive, proactive, and holistic approach to enhancing its
supervision program by addressing issues identified in material loss reviews (MLRs).

The OIG audit report contains recommendations for DSC to review and reinforce as necessary
internal guidance for two supervisory areas: 1) examination coverage and assessment of dominant
bank officials; and 2) Prompt Corrective Action notifications and DSC’s expectations regarding
written notification to ‘Adequately Capitalized’ banks of the applicable restrictions associated with
Section 29 of the FDI Act and Part 337.6 of the FDIC Rules and Regulations. The OIG also
recommends that DSC reviews external guidance issued to the financial industry and determines
the appropriate need for communicating further guidance for supervisory expectations of risk
mitigation for large borrowing relationships and individual concentrations, as well as purchased
participation loans. By June 30, 2011, DSC will conduct the necessary reviews of internal and
external industry guidance and communicate new guidance, as appropriate.

In addition, the OIG recommends that DSC updates the on-the-job training (OJT) reference guides,
where appropriate, to reflect significant guidance associated with common issues identified in
MLRs, such as commercial real estate and acquisition, development, and construction lending;
asset and liability concentrations; and de novo bank supervision. The content of the OJT reference
guides are reviewed periodically to ensure these documents remain current and continue to meet the
needs of pre-commissioned examiners, trainers, and supervisors. By June 30, 2011, DSC will
review the OJT reference guides for significant updates related to common issues identified in
MLRs and submit any recommendations for changes to the Course Oversight Group for its
consideration.

Thank you for the opportunity to review and comment on the Report.




                                                    44
                                                                                        Appendix 5

                Management Response to Recommendations

This table presents the management response on the recommendations in our report and
the status of the recommendations as of the date of report issuance.


Rec.                                                Expected                                       Open
No.       Corrective Action: Taken or              Completion       Monetary       Resolved:        or
                    Planned                           Date          Benefits       Yes or Noa     Closedb
    1   DSC agreed with this recommendation        June 30, 2011       N/A             Yes          Open
        and stated that it will review the OJT
        reference guides for significant updates
        related to common issues identified in
        MLRs and submit any
        recommendations for changes to the
        Course Oversight Group for its
        consideration.
    2   DSC agreed with this recommendation.       June 30, 2011       N/A             Yes          Open
        DSC will conduct the necessary
        reviews of internal and external
        industry guidance related to dominant
        bank officials and communicate new
        guidance, as appropriate.
    3   DSC agreed with this recommendation.       June 30, 2011       N/A             Yes          Open
        DSC will conduct the necessary
        reviews of internal and external
        industry guidance related to large
        borrowing relationships and individual
        concentrations and communicate new
        guidance, as appropriate.
    4   DSC agreed with this recommendation.       June 30, 2011       N/A             Yes          Open
        DSC will conduct the necessary
        reviews of internal and external
        industry guidance related to written
        notifications of applicable restrictions
        to Adequately Capitalized banks and
        communicate new guidance, as
        appropriate.
    5   DSC agreed with this recommendation.       June 30, 2011       N/A             Yes          Open
        DSC will conduct the necessary
        reviews of internal and external
        industry guidance related to purchased
        participation loans and communicate
        new guidance, as appropriate.
a
  Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and
                 completed corrective action is consistent with the recommendation.
             (2) Management does not concur with the recommendation, but alternative action meets the
                 intent of the recommendation.
             (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                 amount. Monetary benefits are considered resolved as long as management provides an
                 amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.


                                                   45
